Audit Report




OIG-13-018
Audit of the United States Mint’s Fiscal Years 2012 and 2011
Financial Statements
December 5, 2012




Office of
Inspector General
Department of the Treasury
      The Mint strives to ensure that their documents are accessible;
to obtain a Section 508 compliant copy of the Mint’s 2012 Annual Report,
                          see the Mint’s website:

                        http://www.usmint.gov/


                               Also see:

       Web Accessibility and Section 508 Compliance policy page
                                       DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF                                December 5, 2012
INSPECTOR GENERAL




            MEMORANDUM FOR RICHARD A. PETERSON, ACTING DIRECTOR
                           UNITED STATES MINT

            FROM:                  Michael Fitzgerald
                                   Director, Financial Audits

            SUBJECT:               Audit of the United States Mint’s Fiscal Years 2012 and
                                   2011 Financial Statements


            I am pleased to transmit the attached audited United States Mint (Mint) financial
            statements for fiscal years 2012 and 2011. Under a contract monitored by the
            Office of Inspector General, KPMG LLP, an independent certified public accounting
            firm, performed an audit of the financial statements of the Mint as of
            September 30, 2012 and 2011 and for the years then ended. The contract
            required that the audit be performed in accordance with generally accepted
            government auditing standards; applicable provisions of Office of Management and
            Budget Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
            amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found:

                •   the financial statements were presented fairly, in all material respects, in
                    conformity with U.S. generally accepted accounting principles;
                •   no matters involving internal control over financial reporting that are
                    considered material weaknesses; and
                •   no instances of reportable noncompliance with laws and regulations tested.

            In connection with the contract, we reviewed KPMG LLP’s reports and related
            documentation and inquired of its representatives. Our review, as differentiated
            from an audit performed in accordance with generally accepted government
            auditing standards, was not intended to enable us to express, and we do not
            express, an opinion on the financial statements or conclusions about the
            effectiveness of internal control or compliance with laws and regulations.
KPMG LLP is responsible for the attached auditors’ reports dated December 3,
2012, and the conclusions expressed in the reports. However, our review
disclosed no instances where KPMG LLP did not comply, in all material respects,
with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Shiela Michel, Manager, Financial Audits at
(202) 927-5407.

Attachment
2012 annual report
Pictured on this year’s cover are some of the United States Mint’s numismatic products that were
offered in 2012. Pictured from left to right are: the American Buffalo One Ounce Gold Proof Coin;
the American Eagle One Ounce Silver Proof Coin; the American Eagle One Ounce Gold Proof
Coin; the American Eagle One Ounce Platinum Proof Coin; and the Star-Spangled Banner Proof
$5 Gold Coin. The coins are set against a weathered American flag.
Acting director’s letter

I am pleased to present the United States Mint’s 2012 Annual Report. Once again this
year, the men and women at each of our facilities delivered outstanding results across our
various business segments and coin programs. It is an honor and privilege to highlight
their accomplishments.
The United States Mint (Mint) operates two fiscally separate programs: a circulating
program and a numismatic program that includes both collectible coin products and
precious metal bullion coins. The Mint enjoyed strong performance throughout fiscal
year (FY) 2012 in both programs. Though revenue decreased in each program in FY                     Richard A. Peterson
2012, as a result of our continued focus on costs, we generated positive seigniorage                 United States Mint
in our circulating program and positive net income in our bullion and collectible                     Acting Director
coin programs.
Reflecting the suspension of Presidential $1 Coin production for circulation, our circulating revenue declined in FY
2012 to $493.3 from $776.9 in FY 2011. While still quite strong from a historical perspective, lower unit volumes
and silver prices pushed our bullion coin revenue down 29.1 percent in FY 2012 to $2.5 billion from the record level
of $3.5 billion set in FY 2011. Revenue from our collectible coins, medals, and other numismatic products decreased
33.3 percent to $481.2 million in FY 2012, down from $721.7 million in FY 2011.
We are proud that our focus on controlling costs allowed us to mitigate these revenue declines and close the year
with positive results in each program. Circulating seigniorage in FY 2012 was $105.9 million. Bullion net income
in FY 2012 was $28.4 million down 56.8 percent from $65.8 million in FY 2011. Net income from our numismatic
collectible coins decreased 34.7 percent to $73.9 million in FY 2012, down from $113.2 million in the prior year.
Our results in FY 2012 reflect a partial return to the norm when compared to the record revenue and net income
results of FY 2011 and the dramatic swings we have experienced since FY 2009. Let’s look more closely into each
of our programs.
CIRCULATING
Most significantly, circulating coin shipments increased 22.8 percent to 9.1 billion units from 7.4 billion in FY 2011
as the Mint ramped up production to meet consistently higher demand from the Federal Reserve Banks (FRBs).
Our circulating coin shipments have grown at a compound annual growth rate (CAGR) of more than 20 percent
since the low of 5.2 billion coins in FY 2009. We are equally pleased with the results of the ongoing cost reduction
efforts that we began in FY 2009. We have actually reduced our non-metal circulating expenses, in nominal dollars,
by $50.2 million (21.8 percent) from $230.1 million in FY 2009 to $179.9 million in FY 2012. Our improved
capacity utilization and significantly reduced cost structure combined to deliver outstanding productivity
improvements across each circulating denomination and position us well for the future.
While our cost reduction efforts, increased productivity, and decreased commodity metals prices were all favorable
in FY 2012, the costs to manufacture and distribute both the one-cent and five-cent coins exceeded their face value
again, just as they have for each of the last six years. This negative seigniorage concerns us, and we continue to
explore ways to address it.
Because we suspended production of the circulating Presidential $1 Coin in early FY 2012 in response to growing
inventories of unused $1 coins at the FRBs, we knew that our seigniorage would be significantly reduced for FY
2012. Our cost reduction efforts, along with positive seigniorage earned on dimes, quarter-dollars, and the James
Garfield $1 Coins (issued prior to the suspension of circulating Presidential $1 Coin production), allowed us to offset
the negative seigniorage generated by the one-cent and five-cent coins to close FY 2012 with positive seigniorage of


                                                           1
$105.9 million. Looking forward, we anticipate continued positive seigniorage for the circulating program overall as
production of the quarter-dollar coin continues to rebound in FY 2013 from its recent lows.
BULLION COINS
One of our most important missions is to mint and issue bullion coins to meet the needs of investors seeking
precious metals for their portfolios. Our facility in West Point produces a wide variety of these precious metal coins
for the investor community. The Philadelphia Mint manufactures the large, five-ounce America the Beautiful Silver
Bullion Coins and the San Francisco Mint currently supplements West Point’s capacity for one-ounce American
Eagle Silver Bullion Coins.
Although unit volumes and commodity prices were down in FY 2012, uncertainty in global fiscal and security
conditions contributed to the significant volatility we saw throughout the year. In January 2012, we saw the highest
monthly unit sales total in our history—with 5.843 million ounces of bullion sold. For the year, we sold 788,000
ounces of gold bullion coins and 34.2 million ounces of silver bullion coins. Gold and silver ounces were down 36.2
percent and 22.7 percent, respectively from the 1.235 million ounces of gold coins and 44.0 million ounces of silver
coins we sold in FY 2011.
Net income for the bullion program saw a decrease of 56.8 percent to $28.4 million in FY 2012 from $65.8 million
in FY 2011 due to lower volumes and pricing. The lower prices for silver—along with lower numismatic sales from
our San Francisco and Philadelphia numismatic products (causing more overhead from those facilities to be charged
to the silver bullion products)—resulted in a minor net income loss for the silver bullion program as a whole. We
have held several focus groups with our precious metal bullion coin sales network and look forward to making some
exciting, customer-centric changes to our bullion program going forward.
NUMISMATIC
Comparing FY 2012 and FY 2011 numismatic sales is difficult because FY 2011 was an exceptional year driven by
higher precious metal prices and volumes, the release of two popular American Silver Eagle Proof Coins, and early
on-sale dates for our most popular numismatic coin sets. FY 2012 saw gold and platinum product revenues decrease
$208.4 million, nearly 87 percent of our entire revenue decrease, due to lower unit sales. A later on-sale date for our
core annual sets along with price reductions for some of those sets also contributed to the program revenue decrease
compared to last year. Unit sales in FY 2012 were 5.6 million, down 23.3 percent from 7.3 million in the prior year.
Total revenue was $481.2 million in 2012, down 33.3 percent from $721.7 million in FY 2011. FY 2012 margins
were consistent with prior year, and we posted net income of $73.9 million, down 34.7 percent from $113.2 million
in FY 2011.
We are very pleased with the new products we brought to market in 2012 and are excited about our pipeline of new
products for 2013. The American Eagle Silver products continue to be extremely popular and we offered them in
several new sets in FY 2012 beginning with the American Eagle 25th Anniversary Set. We continued with a special
American Eagle San Francisco Two-Coin Silver Proof Set, as well as the Making American History Coin and
Currency Set, which features an American Eagle Silver Proof Coin and a specially serialized $5 Federal Reserve Note.
Our new annual United States Mint Birth Set made its debut, and we plan to expand this line in the coming years.
For 2013, we are aligning our offerings more closely with our customers’ interests and are researching a special
product celebrating the 75th Anniversary of the United States Mint at West Point and a product honoring the life of
President Theodore Roosevelt. Roosevelt had a special affinity for United States coinage, and the release of the 2013
Presidential $1 Coin honoring him is also a perfect opportunity to showcase his many contributions.




                                                           2
YOUR UNITED STATES MINT
We are proud of the program accomplishments detailed above, but they are just part of the story of our dynamic and
vibrant team of nearly 1,800 employees. In FY 2012, we made significant progress on our research and development
initiative to examine the many possible metallic alternatives for our nation’s coinage. We established and staffed a
separate and secure research and development laboratory within the Philadelphia Mint and equipped it with circulating
coin production equipment. We have conducted two sets of trial strikes on a variety of metallic compositions and
evaluated them for attributes such as hardness, ductility, corrosion and wear resistance, electromagnetic signature,
availability of raw materials and cost. As this annual report goes to print, we are making final preparations for our
first report to Congress under the “Coin Modernization, Oversight, and Continuity Act of 2010” on the results of our
research and development efforts over the last 18 months.
We celebrated our 220th anniversary as a government agency on April 2, 2012. As one of the oldest and most visible
public institutions in government, we have a special role and rich history to share. On July 3, we dedicated a new
self-guided public tour at the United States Mint at Philadelphia. Its opening culminated more than three years of
planning and construction to make our exhibits more current, interactive, educational and engaging. Our public tour
in Denver set attendance records in 2012. We continued our public outreach with lesson plans for teachers and we
refreshed our web site with a new layout and content. We continued our sustainability initiatives and were one of
just five government agencies that earned a Gold Award for our efforts to reduce power consumption in our elec-
tronic equipment. Additionally, the Headquarters building earned a Gold certification from the U.S. Green Building
Council’s Leadership in Energy and Environmental Design (LEED) program. The certificate represents the building’s
location, design, and construction meet top levels of environmentally sustainable development and operation.
While discussing the contributions of our team, I would be remiss if I did not recognize our Protection team. This
group quietly and professionally goes about its business providing security at all our sites and also performs one of
our key organizational missions—safeguarding the gold and silver reserves of the United States. Our Protection
officers are a key part of the fabric of the Mint, and we appreciate their dedication and service.
We hope you share our pride in this open, transparent, professional, and venerable institution - and that you find this
annual report informative and helpful. The men and women of the United States Mint delivered outstanding results
for our nation throughout 2012. It remains my honor to serve them and our nation in leading the United States Mint.
Thanks to their foresight, hard work and commitment, we are well prepared for the opportunities and challenges ahead.

Sincerely,




Richard A. Peterson, Acting Director




                                                          3
Front row, left to right: Annie Brown, Associate Director, Workforce Solutions; J. Marc Landry, Acting
Associate Director of Manufacturing and Philadelphia Plant Manager; David Croft, Denver Plant Manager;
Daniel P. Shaver, Chief Counsel; Beverly Ortega Babers, Chief Administrative Officer; Ellen McCullom,
West Point Plant Manager; David Motl, Chief Financial Officer; Goutam Kundu, Chief Informational Officer
Second row, left to right: Dennis O’Connor, Chief of Protection; Larry Eckerman, San Francisco Plant
Manger; B.B. Craig, Associate Director of Sales and Marketing; Dick Peterson, Acting Director; Ron
Harrigal, Acting Chief Engraver; Eric Anderson, Executive Secretary; William Norton, Director, Legislative
and Intergovernmental Affairs Not pictured: Tom Jurkowsky, Director Public Affairs


Organizational Profile
Our Mission: Serve the American people by manufacturing and distributing circulating, precious metal and
collectible coins and national medals, and to provide security over assets entrusted to us.
Our Vision: Become the finest mint in the world, through excellence in our people, products, customer service,
and workplace.
Established in 1792, the Mint is the world’s largest coin manufacturer. Since Fiscal Year (FY) 1996, the Mint has
operated under the Public Enterprise Fund (PEF). As authorized by Public Law 104-52 (codified at 31 U.S.C. § 5136),
the PEF enables the Mint to operate without an appropriation. We generate revenue through the sale of circulating
coins to the Federal Reserve Banks (FRB), numismatic products to the public and bullion coins to authorized
purchasers. Money in excess of amounts required by the PEF is transferred to the United States Treasury General Fund.
The Mint operates six facilities and employs approximately 1,800 employees across the United States. Each facility
performs unique functions critical to our overall operations. Manufacturing facilities in Philadelphia and Denver
produce coins of all denominations for circulation. Both facilities also produce dies for striking coins. All sculpting
and engraving of circulating, bullion, and numismatic coin and medal designs is performed in Philadelphia.
Production of numismatic and bullion products is primarily performed at facilities in San Francisco and West Point.
All four production facilities produce commemorative coins as authorized by federal laws. The United States
Bullion Depository at Fort Knox stores and safeguards United States gold bullion reserves. Administrative and
oversight functions are performed at our Headquarters in Washington, D.C.

                                                           4
Table of Contents


     The United States Mint at a Glance							                             6


     Management Discussion and Analysis						                              9


     Message from the Chief Financial Officer						                       28


     Independent Auditors’ Report							                                  29


     Financial Statements								                                         31


     Notes to Financial Statements							                                 35


     Required Supplementary Information						                             51


     Other Accompanying Information							                                52


     Independent Auditors’ Report on Internal Controls					               53


     	     Exhibit I – Status of Prior Year’s Significant Deficiency			   55


     Independent Auditors’ Report on Compliance and Other Matters			      56


     Appendix I: FY 2012 Coin and Medal Products					                     58




                                        5
                                THE united states MINT AT A GLANCE
                                                                                                       Revenue (dollars in millions)
                                                                                                                                                               Seigniorage and Net Income                                       Transfer to the Treasury Ge
                                UNITED STATES MINT (MINT)                                              Revenue (dollars in millions) 4,970.0                                   Revenue
                                                                                                                                                               (dollars in millions,     byprotection
                                                                                                                                                                                     before Line of Business
                                                                                                                                                                                                      cost)                     (dollars in millions)
                                                                                                                                                                               (percent
                                                                                                                                                               Seigniorage and Net      of total)
                                                                                                                                                                                   Income                                       Transfer to the Treasury Ge
                                The Mint is the world’s largest coin manufacturer.                                          3,886.7
                                                                                                                                       4,970.0
                                                                                                                                                               (dollars in millions, before protection cost)                    (dollars in millions)
                                Our men and women manufacture and distribute                                                3,886.7
                                                                                                                                                 3,435.4
                                                                                                                                                                     Bullion
                                                                                                                                                                                                                       Numismatic 750.0
                                                                                                                                                                                                                         14.0%
                                                                                                                                                                806.471.6%
                                circulating coins, precious metal and collectible                       2,800.5
                                                                                                                  2,912.4                        3,435.4
                                                                                                                                                                                                                                     750.0
                                                                                                                                                                806.4
                                coins, and national medals to meet the needs                            2,800.5
                                                                                                                  2,912.4
                                                                                                                                                                                                  527.8
                                                                                                                                                                                                                                             475.0
                                                                                                                                                                                                                                                        388.0
                                                                                                                                                                           501.6
                                of the United States. Our vision is to become                                                                                                           405.8
                                                                                                                                                                                                  527.8
                                                                                                                                                                                                                                             475.0
                                                                                                                                                                                                                                                        388.0
                                                                                                                                                                           501.6
                                the finest mint in the world, through excellence                                                                                                        405.8                  208.2       Circulating
                                                                                                                                                                                                                                                                 5
                                                                                                                                                                                                                             14.4%
                                in our people, products, customer service,                                                                                                                                     208.2

                                and workplace.                                                          2008       2009      2010       2011       2012         2008       2009         2010      2011         2012                  2008    2009       2010     2

                                                                                                        2008       2009      2010       2011       2012         2008       2009         2010      2011         2012                  2008    2009       2010     2
                                                   Revenue (dollars in millions)
                                                                                                        Seigniorage and Net Income                            Transfer
                                                                                                                                                              Revenue to the Treasury
                                                                                                                                                                       (dollars            General Fund
                                                                                                                                                                                in millions)                                    Revenue (dollars in millions)
                                                                                    4,970.0
                                                                                                        (dollars in millions, before protection cost)                        Revenue
                                                                                                                                                              (dollars in millions)
                                                                                                                                                                                         by Denomination
                                                                                                       Revenue (dollars in millions)                                                   (dollars in3,471.4
                                                                                                                                                                                                   millions)                                                     7
                                CIRCULATING Coinage                3,886.7
                                                                                                                                                              Revenue (dollars in millions)                                      Revenue (dollars in millions)
                                                                                                                                                                         $1 Coin       2,855.4   3,471.4
                                                                                                       Revenue (dollars in millions)                                                                              One-Cent                                       7
                                The Mint is the sole manufacturer of legal3,435.4
                                                                                tender                                                                         750.0      $97.1
                                                                                                                                                                                                                    $58.4            557.2
                                                                                                         806.4                                                                         2,855.4             2,460.9
                                coinage in the United
                                                   2,800.5
                                                           States.
                                                           2,912.4 The Mint’s highest
                                                                                                        1,294.5                                                                                                                      557.2   440.0
                                                                                                                                                                                                           2,460.9
                                priority is to efficiently and effectively mint                         1,294.5                         527.8
                                                                                                                                                                          475.0
                                                                                                                                                                          1,694.8
                                                                                                                                                                                        388.0
                                                                                                                                                                                                                          Five-Cent
                                                                                                                                                                                                                                             440.0
                                                                                                                                                                                                                                                        413.1
                                                                                                                   501.6                                   Quarter-Dollar                                                   $50.3
                                and issue circulating coinage.                                                     777.6
                                                                                                                             405.8
                                                                                                                                        776.9
                                                                                                                                                              $121.7      1,694.8                                                                       413.1
                                                                                                                             618.2                              948.8
                                                                                                                   777.6                776.9     208.2
                                                                                                                                                  493.3
                                                                                                                             618.2                                                                51.0         77.0
                                                                                                                                                                948.8
                                                                                                                                                  493.3
                                                                                                                                                                                                                       Dime
                                                     2008      2009       2010       2011      2012     2008       2009      2010       2011       2012        2008        2009         2010      2011         2012
                                                                                                        2008       2009      2010       2011       2012        2008        2009         2010      2011         2012 $165.8           2008    2009       2010     2
venue (dollars in millions)                                                                             2008       2009      2010       2011       2012         2008       2009         2010      2011         2012                  2008    2009       2010     2
                                                     Seigniorage and Net Income                        Transfer to the Treasury General Fund
                              4,970.0
                                                     (dollars in millions, before protection cost)     (dollars in millions)                                                    Revenue by Program
                                                                                                       Revenue (dollars in millions)                          Revenue (dollars in (dollars
                                                                                                                                                                                   millions)
                                                                                                                                                                                             in millions)
                  3,886.7
                                BULLION Coins      Revenue (dollars in millions)                                                       3,471.4
                                                                                                                                                                                                  721.7
                                                                                                                                                                   American
                                The Mint
                                     3,435.4
                                             is the world’s largest producer of gold                    750.0               2,855.4                              Eagle Silver
                                                      806.4                                                                                                        $1,100.6
                                                                                                                                                               557.2
800.5
        2,912.4                 and silver bullion coins. The bullion program                                                                    2,460.9                                                       481.2       America the
                                                                                                                                                                           440.0
                                provides consumers  1,294.5
                                                           a simple and tangible  527.8
                                                                                         means                     475.0
                                                                                                                              388.0
                                                                                                                                                                                                                          Beautiful Silver
                                                              501.6                                               1,694.8                                                               413.1                                 $14.3
                                to acquire precious metal777.6  coins.405.8
                                                                          Investors
                                                                                 776.9
                                                                                        purchase
                                                                                                                                                                                                                            American
                                bullion coins for the intrinsic metal  618.2     value and208.2         948.8                                      77.0
                                                                                                                                                                                                                           Buffalo Gold
                                                                                                                                         51.0                                                                                $240.6
                                                                                         493.3
                                the United States Government’s guarantee of                                                                                         American
008      2009     2010          each coin’s
                               2011    2012    metal2008
                                                       weight,   content,
                                                              2009     2010 and      purity.
                                                                                  2011    2012          2008       2009      2010        2011      2012            Eagle Gold
                                                                                                                                                                    $1,105.4
                                                     2008      2009       2010       2011      2012     2008       2009      2010       2011       2012        2008        2009         2010      2011         2012

                                                                                                                                                                                      Revenue by Program
                                                    Revenue (dollars in millions)                      Revenue (dollars in millions)                                                   (dollars in millions)
venue (dollars in millions)    NUMISMATIC Products                      3,471.4
                                                                                                                                        721.7
                                                                                                                                                                         Silver                                   Annual Core Sets
                               The Mint prepares and distributes
                                                               2,855.4 numismatic                                                                                       $150.5                                        $65.7
                                                                                                        557.2
                               products for collectors and those who desire     2,460.9                                                            481.2
294.5                                                                                                              440.0                                                                                                   Quarters Products
                               high-quality versions of coinage. Most of our                                                 413.1
                                                                                                                                                                                                                                $18.9
                                                       1,694.8
         777.6                 recurring products are required by federal statute.
                              776.9
                                                                                                                                                                                                                            Presidential
                                                                                                                                                                                                                           & First Spouse
                  618.2        Others are required  by individual public laws.
                                                948.8                                                                                                                                                                           $35.4
                                        493.3
                                                                                                                                                                                                                         Commemoratives
                                                                                                                                                                                                                             $29.0
                                                                                                                                                              Gold & Platinum
                                                                                                                                                                  $161.5                                          Miscellaneous
                                                                                                                                                                                                                      $20.2
008      2009     2010         2011     2012         2008       2009      2010       2011       2012    2008       2009      2010       2011       2012


                                                    Revenue (dollars in millions)                                                                                  Seigniorage and Net Income by Line of Business
                                                                                                        Seigniorage and Net Income                            Transfer to theinTreasury
                                                                                                                                                                    (dollars    millions, General Fund
                                                                                                                                                                                          before protection cost)
                                SEIGNIORAGE and net income            4,970.0
                                                                                                        (dollars in millions, before protection cost)         (dollars in millions)

                                Seigniorage is the difference 3,886.7
                                                                between the face                                                                                   Numismatic                                          Circulating
                                value and cost of producing circulating coinage.
                                                                              3,435.4
                                                                                                                                                                750.0
                                                                                                                                                                     $73.9                                               $105.9
                                                                                                         806.4
                                The Mint transfers  seigniorage to the Treasury
                                                2,800.5
                                                        2,912.4


                                General Fund to help finance national debt. Net                                                         527.8
                                                                                                                                                                           475.0
                                                                                                                                                                                        388.0
                                                                                                                   501.6
                                income from bullion and numismatic operations                                                 405.8

                                can also fund federal programs.                                                                                    208.2
                                                                                                                                                                                                  51.0         77.0


                                                     2008       2009      2010       2011      2012     2008       2009      2010        2011      2012        2008        2009         2010      2011     Bullion
                                                                                                                                                                                                            2012
                                                                                                                                                                                                           $28.4
                                                                                                                        6

                                                                                                       Revenue (dollars in millions)                          Revenue (dollars in millions)
                                                                                                                                       3,471.4
                                                    Revenue (dollars in millions)                                                                                                                 721.7

                                                                                                                            2,855.4
                    Gross Cost (dollars in millions)                                     2012 PERFORMANCE
                                                       4,442.2
                                                                                         Revenue and net income was lower across all three business lines in FY 2012. Total
                                             3,480.9
                                                                                         revenue was $3,435.4 million, decreasing $1,534.6 from last year. Although circulating
                                                                   3,227.2
                                                                                         shipments increased 22.8 percent from last year, circulating revenue decreased. Selling,
                                 2,410.8                                                 general and administrative (SG&A) expenses declined 4.6 percent from last year, and the
                     1,994.1                                                             cost of goods sold (COGS) decreased 28.2 percent to $3,079.5 million. Total seigniorage
                                                                                         and net income, before Protection expenses, decreased 60.6 percent to $208.2 million
                                                                                         compared to last year.

                      2008        2009        2010      2011        2012


                                      Shipments
                                  (millions of coins)
                                                                                         circulating coinage
                                                                 five-cent
                  one-cent                                         1,006                 Circulating coin shipments increased 22.8 percent to 9,082 million coins in FY 2012.
                   5,835
                                                                                         Shipments of all coin denominations except $1 coins increased from FY 2011, with
                                                                                         quarters experiencing the strongest annual percentage growth. Despite the increased
                                                                       dime
                                                                       1,658             shipments, circulating revenue and seigniorage decreased compared to last year because
                                                                                         $1 coin shipments ceased in December 2011. Circulating revenue decreased 36.5 percent
                                                                                         to $493.3 million. Seigniorage decreased 69.6 percent to $105.9 million. Seigniorage per
                                                             quarter-dollar              dollar issued decreased to $0.21 from $0.45 last year.
                                                                  486
                                                       $1 coin
                                                         97

                                           Sales
                                   (millions of ounces)                                  bullion coins
                  American                                                               Demand for bullion coins slowed in FY 2012 after two years of unprecedented growth.
                 Eagle Silver
                    33.7                                                                 The Mint sold 34.8 million ounces of gold and silver bullion coins in FY 2012, down
                                                                                         10.4 million ounces from last year. Total bullion revenue decreased 29.1 percent to
                                                                        American
                                                                       Buffalo Gold      nearly $2.5 billion in FY 2012, because gold bullion revenue decreased $551.4 million
                                                                           0.1
                                                                        America the      and silver revenue decreased $459.1 million compared to last year. Bullion net income
                                                                      Beautiful Silver
                                                                            0.4          decreased 56.8 percent to $28.4 million. Bullion net margin decreased to 1.2 percent
                                                                     American
                                                                    Eagle Gold           compared to 1.9 percent last year.
                                                                       0.6




                                          Sales
                                 (thousands of units sold)
                                                            Quarters Products            Numismatic products
                 Annual Core                                      737
                  Set 1,627                                                              Numismatic sales decreased 23.3 percent to 5.6 million units in FY 2012. Numismatic
                                                                         Presidential
                                                                        & First Spouse
                                                                                         revenues decreased 33.3 percent to $481.2 million mainly because of a decrease of
                                                                              891        $208.4 million in gold and platinum product revenue and a decrease of $41.7 million
                                                                                         in annual core sets revenue. Numismatic net income decreased 34.7 percent to $73.9
                                                                        Commemoratives   million. Numismatic net margin decreased to 15.4 percent compared to 15.7 percent
                                                                            437
                                                                    Miscellaneous
                                                                                         last year.
                        Silver                                           194
                        1,568                                    Gold & Platinum
                                                                       105


me                   Transfer to the Treasury General Fund
ection cost)         (dollars in millions)
                                                                                         Transfer to the General Fund
                                                                                         In FY 2012, the Mint made an on-budget transfer of $77 million to the Treasury General
                       750.0
                                                                                         Fund. This transfer consisted of FY 2011 numismatic and bullion program earnings
                                                                                         after protection costs. The Mint made no off-budget transfers to the General Fund this
                                   475.0
527.8                                         388.0                                      fiscal year. Instead, the Mint determined that all amounts in the PEF resulting from FRB
                                                                                         receipts on the sale of circulating coins were required to mitigate the risks of future
         208.2
                                                         51.0         77.0               potential economic uncertainty, impacts to our circulating program from continued penny
                                                                                         and nickel losses, and loss of revenue from the suspension of $1 coin production.
2011      2012         2008        2009       2010       2011         2012


                                                                                                                7
                     Revenue (dollars in millions)
,471.4
                                                         721.7


                       557.2
2012 america the beautiful quarters® program


                     8
MEET THE NATION’S NEED FOR CIRCULATING COINS

As America’s sole manufacturer of legal tender coinage, the efficient and effective production and distribution of
coinage is the Mint’s highest priority.
We mint and issue circulating coins to the FRB in quantities necessary to replenish inventory and fulfill the demand
of commercial banks and other financial institutions. These financial institutions then distribute coins to meet the
demand of retailers and the public. The Mint recognizes revenue from the sale of circulating coins at face value
when they are shipped to the FRB.
PRESIDENTIAL $1 COIN PROGRAM CHANGES
                                                                           Total Circulating Coin Production (coins in millions)
Congress enacted the Presidential $1 Coin Act of 2005,
which mandated the Mint issue four new Presidential                      30,000

$1 Coins each year beginning in 2007. As each coin                       25,000
was introduced, the FRB ordered enough to meet the
                                                                         20,000
initial demand of financial institutions. Demand for each
new coin usually dropped soon after introduction and                     15,000

financial institutions ended up returning about 40 percent               10,000
of the $1 coins to the FRB. By December 2011, the FRB
                                                                          5,000
vaults held more than 1.4 billion $1 coins.
                                                                  0
Coins stored in FRB vaults do not function as a means                   1972      1982     1992     2002     2012

of conducting commercial transactions and are not a
prudent use of taxpayer resources. Therefore, in December 2011, the Secretary of the Treasury suspended minting
Presidential $1 Coins for circulation.
The Mint continues to produce Presidential $1 Coins to meet public demand through the numismatic sales channel,
as we do with the half-dollar coin.
CIRCULATING RESULTS
Demand for newly minted circulating coinage increased in FY 2012 compared with prior years. However, the mix
of coin denominations shipped to the FRB changed, lowering circulating revenue and seigniorage generated from
operations. Compared to last year, shipments increased for all coin denominations except $1 coins.
The total number of circulating coins shipped to the FRB increased 22.8 percent to 9,082 million coins in FY 2012
from 7,396 million pieces in FY 2011. Quarter shipments experienced the greatest annual growth, increasing 50.5
percent from FY 2011. Penny shipments were 64.2 percent of total shipments, up from 58.0 percent of total
shipments in FY 2011.



CIRCULATING (dollars in millions except seigniorage per $1 issued)
                                                                                                                    % Change
                                          2012           2011             2010            2009          2008        2011 to 2012

Value of Shipments                    $   493.3      $   776.9       $     618.2      $   777.6      $ 1,294.5          (36.5%)
Gross Cost                            $   387.4      $   428.1       $     317.4      $   349.8      $ 588.3             (9.5%)
 Cost of Goods Sold                   $   325.8      $   364.7       $     239.2      $   251.7      $ 491.3            (10.7%)
 Selling, General & Administrative    $    61.6      $    63.4       $      78.2      $    98.1      $    97.0           (2.8%)
Seigniorage                           $   105.9      $   348.8       $     300.8      $   427.8      $ 706.2            (69.6%)
Seigniorage per $1 Issued             $    0.21      $    0.45       $      0.49      $    0.55      $    0.55




                                                                 9
       The total dollar value of shipments decreased 36.5 percent to $493.3 million in FY 2012 from $776.9 million in
       FY 2011. This decrease in performance was expected with the suspension of minting the Presidential $1 Coin for
       circulation. In 2012, the $1 coin shipments contributed $97.1 million in revenue and $76.6 million in seigniorage
       compared to $467 million in FRB receipts and $382.8 million seigniorage in FY 2011. As a result, total circulating
       seigniorage decreased 69.6 percent to $105.9 million from $348.8 million last year. Seigniorage per dollar issued
       decreased to $0.21 in FY 2012 from $0.45 in FY 2011.


SHIPMENTS, COSTS AND SEIGNIORAGE BY DENOMINATION
(coins and dollars in millions except seigniorage per $1 issued)
2012                                 One-Cent        Five-Cent              Dime     Quarter-Dollar Half-Dollar          $1   Mutilated          Total
                                                                                                                               & Other
Coins Shipments                          5,835           1,006            1,658          486               –           97            –         9,082
Value of Shipments                   $       58.4    $       50.3     $     165.8    $   121.7      $      –      $    97.1   $      –     $     493.3
Gross Cost                           $     116.4     $      101.5     $       82.7   $    54.9      $      –      $    20.5   $    11.4    $     387.4
 Cost of Goods Sold                  $       96.5    $        84.1    $       69.5   $    46.6      $      –      $    17.7   $    11.4    $     325.8
 Selling, General & Administrative   $       19.9    $        17.4    $       13.2   $     8.3      $      –      $     2.8   $      –     $      61.6
Seigniorage                          $      (58.0)   $       (51.2)   $       83.1   $    66.8      $      –      $    76.6   $   (11.4)   $     105.9
Seigniorage per $1 Issued            $      (0.99)   $       (1.02)   $      0.50    $    0.55      $      –      $    0.79   $      –     $      0.21

2011                                 One-Cent        Five-Cent              Dime     Quarter-Dollar Half-Dollar          $1   Mutilated          Total
                                                                                                                               & Other
Coins Shipments                          4,289             914            1,403          323               –          467            –         7,396
Value of Shipments                   $      42.9     $       45.7     $     140.3    $    81.0      $      –      $   467.0   $      –     $     776.9
Gross Cost                           $     103.1     $     102.2      $      79.3    $    36.0      $      –      $    84.2   $    23.3    $     428.1
 Cost of Goods Sold                  $      85.4     $       86.1     $      67.1    $    30.3      $      –      $    72.5   $    23.3    $     364.7
 Selling, General & Administrative   $      17.7     $       16.1     $      12.2    $     5.7      $      –      $    11.7   $      –     $      63.4
Seigniorage                          $      (60.2)   $      (56.5)    $      61.0    $    45.0      $      –      $   382.8   $   (23.3)   $     348.8
Seigniorage per $1 Issued            $      (1.40)   $      (1.24)    $      0.43    $    0.56      $      –      $    0.82   $      –     $      0.45

2010                                 One-Cent        Five-Cent              Dime     Quarter-Dollar Half-Dollar          $1   Mutilated          Total
                                                                                                                               & Other
Coins Shipments                          3,487             359             887           252                –         414             –        5,399
Value of Shipments                   $      34.9     $       17.9     $     88.7     $    63.2      $       –     $   413.5   $       –    $     618.2
Gross Cost                           $      62.3     $       33.1     $     50.6     $    32.2      $    0.1      $   130.7   $     8.4    $     317.4
 Cost of Goods Sold                  $      62.3     $       33.1     $     40.8     $    24.6      $    0.1      $    69.9   $     8.4    $     239.2
 Selling, General & Administrative   $         –     $          –     $      9.8     $     7.6      $       –     $    60.8   $       –    $      78.2
Seigniorage                          $     (27.4)    $      (15.2)    $     38.1     $    31.0      $   (0.1)     $   282.8   $    (8.4)   $     300.8
Seigniorage per $1 Issued            $     (0.79)    $      (0.85)    $     0.43     $    0.49      $       –     $    0.68   $       –    $      0.49




                                                                               10
                                                                   Circulating Seigniorage by Year




                                                                                                                                                                               Nickel

                                                                                                                                                                               Penny
                                 Dollars in millions




                                                                                                                                                                                     $77
                                                                                                                                                                                     $67
                                                                                                                                                                                     $83
                                                                                                                                                                                    $(51)
                                                                                                                                                                                    $(58)


                                                                                                                                                                               2012


                                                                       Shows seigniorage generated by denomination for the last seven years.




                                    COGS decreased 10.7 percent to $325.8 million in FY 2012 from $364.7 million in FY 2011. A component of this
                                    was a decrease in the market prices of copper, nickel, and zinc. Average daily market prices for copper and zinc
                                    decreased 13.8 percent and 15.8 percent, respectively, from FY 2011 to FY 2012, while the average daily market
                                    price for nickel decreased 26 percent over the same time period. The Mint saved about $41 million in FY 2012 due
                                    to the decreased metal costs compared to last year. Apart from metals, plant expenses at Philadelphia and Denver
                                    decreased by about 3 percent, even though our circulating coinage shipments increased by 22.8 percent. The Mint
                                    achieved this reduction largely due to decreased depreciation, salaries and benefits, and energy expenses.


                               Base Metal Daily Official Spot Price (prices per metric tonne in dollars)
        Base
 Base Metal   Metal
            Daily    DailySpot
                  Official Official Spot
                                Price     Price
                                      (prices per(prices
                                                  metric per metric
                                                         tonne      tonne in dollars)
                                                               in dollars)




                              Sep-08                         Sep-09           Sep-10            Sep-11   Sep-12                                    Sep-08        Sep-09       Sep-10      Sep-11           Sep-12                         Sep-08       Sep-09       Sep-10       Sep-11
       Sep-08 Sep-09   Sep-09 Sep-10                   Sep-10 Sep-11   Sep-11 Sep-12   Sep-12                     Sep-08     Sep-08Sep-09   Sep-09Sep-10 Sep-10Sep-11 Sep-11Sep-12 Sep-12              Sep-08 Sep-08Sep-09         Sep-09Sep-10 Sep-10Sep-11 Sep-11Sep-12 Sep-12
p-08




                            Precious Metal Daily Spot Price (prices per troy ounce in dollars)
PreciousPrecious Metal
         Metal Daily   Daily
                     Spot    Spot
                          Price    Price
                                (prices per(prices per troy
                                            troy ounce      ounce in dollars)
                                                        in dollars)




                                                                                                                                                    11
                             Sep-08                          Sep-09          Sep-10             Sep-11   Sep-12                                      Sep-08         Sep-09          Sep-10           Sep-11           Sep-12                 Sep-08      Sep-09      Sep-10       Sep-11
p-08   Sep-08 Sep-09   Sep-09 Sep-10                   Sep-10 Sep-11   Sep-11 Sep-12   Sep-12
                                                                                                                    Sep-08     Sep-08 Sep-09   Sep-09 Sep-10   Sep-10 Sep-11   Sep-11 Sep-12   Sep-12       Sep-08   Sep-08
                                                                                                                                                                                                                          Sep-09          Sep-10 Sep-10
                                                                                                                                                                                                                                     Sep-09                       Sep-12 Sep-12
                                                                                                                                                                                                                                                      Sep-11 Sep-11
SG&A expenses decreased by 2.8 percent to $61.6 million in FY 2012 from $63.4 million in FY 2011. This was
primarily due to a 30.8 percent reduction in expenses for $1 coin programs and manufacturing administration. More
SG&A expenses were absorbed by the penny, nickel, dime, and quarter coins because we suspended production
of $1 coins for circulation.
FY 2012 unit costs decreased for all denominations compared to last year. The unit cost for both penny and nickel
denominations remained above face value for the seventh consecutive fiscal year. Although there was higher demand
for penny and nickel coins, lower unit costs generated a smaller FY 2012 loss ($109.2 million) for these denomina-
tions compared to FY 2011 ($116.7 million).



UNIT COST OF PRODUCING AND DISTRIBUTING COINS BY DENOMINATION
2012                                          One-Cent         Five-Cent            Dime         Quarter-Dollar      Half-Dollar             $1


Cost of Goods Sold                            $ 0.0163         $ 0.0829         $ 0.0415         $ 0.0943            $      –         $ 0.1802
Selling, General & Administrative             $ 0.0034         $ 0.0173         $ 0.0080         $ 0.0171            $      –         $ 0.0288
Distribution to FRB                           $ 0.0003         $ 0.0007         $ 0.0004         $ 0.0016            $      –         $ 0.0021
Total Unit Cost                               $ 0.0200         $ 0.1009         $ 0.0499         $ 0.1130            $      –         $ 0.2111

2011                                          One-Cent         Five-Cent            Dime         Quarter-Dollar      Half-Dollar             $1


Cost of Goods Sold                            $ 0.0197         $ 0.0938         $ 0.0474         $ 0.0923            $      –         $ 0.1531
Selling, General & Administrative             $ 0.0041         $ 0.0176         $ 0.0087         $ 0.0176            $      –         $ 0.0251
Distribution to FRB                           $ 0.0003         $ 0.0004         $ 0.0004         $ 0.0015            $      –         $ 0.0021
Total Unit Cost                               $ 0.0241         $ 0.1118         $ 0.0565         $ 0.1114            $      –         $ 0.1803

2010                                          One-Cent         Five-Cent            Dime         Quarter-Dollar      Half-Dollar             $1


Cost of Goods Sold                            $ 0.0176         $ 0.0916         $ 0.0454         $ 0.0956            $       –        $ 0.1659
Selling, General & Administrative             $      –         $      –         $ 0.0110         $ 0.0302            $       –        $ 0.1469
Distribution to FRB                           $ 0.0003         $ 0.0006         $ 0.0005         $ 0.0020            $       –        $ 0.0029
Total Unit Cost                               $ 0.0179         $ 0.0922         $ 0.0569         $ 0.1278            $       –        $ 0.3157

Note: Before FY 2011, SG&A costs were allocated based on gross margin. Little or no allocated SG&A expense was applied to the penny or nickel, which generated
negligible or negative gross margins. This policy changed to allocate SG&A expenses based on the costs to manufacture these products.




                                                                             12
ALTERNATIVE METAL RESEARCH AND DEVELOPMENT
Metal expenses are the largest portion of circulating production cost. On December 14, 2010, President Obama
signed into law the Coin Modernization, Oversight, and Continuity Act of 2010 (Public Law 111-302) to provide the
Secretary of the Treasury research and development authority for alternative metallic materials for circulating coins.
To ensure an independent assessment, the Mint contracted with an external firm in FY 2012 to perform research and
development on various options, ultimately testing more than 30 different types of alloys. Congress will receive a
report in December 2012 on the Mint’s findings from this first round of research.
CIRCULATING PRODUCTION initiativeS
In FY 2012, the Mint reduced costs of circulating coinage production as Denver and Philadelphia went from three
shifts to two shifts. This change is projected to save an estimated $2 million a year on labor and utilities costs.
In 2011, the Philadelphia and Denver facilities changed die and blank processing to improve the quality of coins and
make dies last longer. As a result, die usage decreased, saving the Mint approximately $312,000. In FY 2012, the
Denver facility implemented a program to recycle the carbide inserts of die collars. Die inserts form the edge of the
coin as it is stamped in the collars. Instead of discarding worn ones, they can be reused on any coin that is a larger
size. This recycling program was expanded to the San Francisco facility.




                                                         13
2012 American Buffalo One Ounce Gold Proof Coin


                      14
MEET THE PUBLIC’S DEMAND FOR U.s. BULLION COINS

Our bullion coin program provides the public a simple and tangible means to acquire precious metal coins from
authorized purchasers as part of an investment portfolio. Investors purchase bullion coins not only for their intrinsic
metal value, but also because the United States guarantees each coin’s metal weight, content, and purity.
We mint and issue gold and silver bullion coins to authorized purchasers through American Eagle, American Buffalo,
and America the Beautiful Silver Bullion Coin™ programs. The Mint sells the coins to the authorized purchasers at the
same market price paid for the metal plus a premium to cover bullion program operating costs. Authorized purchasers
agree to maintain an open, two-way market for these coins, assuring their liquidity. This allows the public to purchase
and sell coins at the prevailing market price, adjusting for any premium the authorized purchaser applies.
BULLION COIN RESULTS
Demand for bullion coins fell in FY 2012 after unprecedented                          Total Bullion Coin Sales (ounces sold in millions)
highs in FY 2010 and FY 2011. The Mint sold 34.8 million ounces                50

of gold and silver bullion coins in FY 2012, compared to 45.2                                                                  45.2
                                                                               45
million ounces in FY 2011, a decrease of 23 percent. The average
spot price of gold increased 11.3 percent while silver decreased 8.3           40
                                                                                                                     35.8
percent compared to last year. Accordingly, total bullion revenue              35
                                                                                                                                           34.8

was $2,460.9 million in FY 2012, down $1,010.5 million (29.1
percent) from $3,471.4 million in FY 2011.                                     30
                                                                                                       27.6


Revenue from American Eagle Silver Bullion Coin sales dropped                  25

24.8 percent this year, to $1,100.6 million in FY 2012 from                    20
                                                                                        18.4
$1,464.0 million in FY 2011. Sales of five-ounce America the
Beautiful Silver Bullion Coins generated $14.3 million in revenue              15

compared to $110 million in revenue in FY 2011. The Mint sold                  10
45.5 percent fewer ounces of American Eagle Gold Bullion Coins,
resulting in revenue declining (34.6 percent) to $1,105.4 million                 5

from $1,689.5 million in FY 2011. American Buffalo Gold Bullion                   0
                                                                                       FY 2008        FY 2009       FY 2010   FY 2011     FY 2012
Coin revenue grew 15.7 percent from last year. In 2012, these
products were available throughout the entire fiscal year, but in
FY 2011, they only became available in March.



BULLION COINS (dollars in millions)
                                                                                                                                 % Change
                                         2012         2011              2010                   2009                 2008         2011 to 2012

Sales Revenue                         $ 2,460.9    $ 3,471.4         $ 2,855.4           $ 1,694.8              $    948.8              (29.1%)
Gross Cost                            $ 2,432.5    $ 3,405.6         $ 2,800.2           $ 1,662.1              $    931.0              (28.6%)
 Cost of Goods Sold                   $ 2,407.6    $ 3,378.8         $ 2,778.4           $ 1,650.0              $    922.6              (28.7%)
 Selling, General & Administrative    $     24.9   $     26.8        $     21.8          $     12.1             $       8.4              (7.1%)
Net Income                            $     28.4   $     65.8        $     55.2          $     32.7             $      17.8             (56.8%)
Bullion Net Margin                         1.2%         1.9%              1.9%                1.9%                    1.9%




                                                                15
Bullion coin net income decreased to $28.4 million in FY 2012, down 56.8 percent from $65.8 million in FY 2011.
The bullion net margin decreased from 1.9 percent to 1.2 percent as the decrease in revenue was greater than the
decrease in cost. Bullion COGS, primarily reflecting the metal market prices of coins sold, decreased 28.7 percent
to $2,407.6 million in FY 2012 from $3,378.8 million last year. Bullion SG&A cost decreased 7.1 percent to
$24.9 million from $26.8 million in FY 2011, primarily because of a 9.9 percent decrease in general and
administrative expenses.

BULLION COINS REVENUE, COST AND NET INCOME BY PROGRAM
(dollars in millions)
2012                                 American     American           American       America the           Total
                                     Eagle Gold   Eagle Silver       Buffalo Gold   Beautiful Silver
Sales Revenue                        $ 1,105.4    $ 1,100.6          $   240.6      $    14.3          $ 2,460.9
Gross Cost                           $ 1,077.4    $ 1,105.0          $   235.3      $    14.8          $ 2,432.5
 Cost of Goods Sold                  $ 1,075.1    $ 1,083.0          $   234.9      $    14.6          $ 2,407.6
 Selling, General & Administrative   $     2.3    $     22.0         $     0.4      $     0.2          $    24.9
Net Income                           $    28.0    $     (4.4)        $     5.3      $    (0.5)         $    28.4
Bullion Net Margin                        2.5%         (0.4%)             2.2%          (3.5%)              1.2%


2011                                 American     American           American       America the           Total
                                     Eagle Gold   Eagle Silver       Buffalo Gold   Beautiful Silver
Sales Revenue                        $ 1,689.5    $ 1,464.0          $ 207.9        $ 110.0            $ 3,471.4
Gross Cost                           $ 1,645.3    $ 1,450.4          $ 202.9        $ 107.0            $ 3,405.6
 Cost of Goods Sold                  $ 1,642.3    $ 1,428.0          $ 202.6        $ 105.9            $ 3,378.8
 Selling, General & Administrative   $      3.0   $     22.4         $    0.3       $    1.1           $     26.8
Net Income                           $     44.2   $     13.6         $    5.0       $    3.0           $     65.8
Bullion Net Margin                        2.6%         0.9%             2.4%           2.7%                 1.9%


2010                                 American     American           American                             Total
                                     Eagle Gold   Eagle Silver       Buffalo Gold
Sales Revenue                        $ 1,710.8    $ 659.9            $ 484.7                           $ 2,855.4
Gross Cost                           $ 1,675.5    $ 646.4            $ 478.3                           $ 2,800.2
 Cost of Goods Sold                  $ 1,663.5    $ 641.7            $ 473.2                           $ 2,778.4
 Selling, General & Administrative   $     12.0   $   4.7            $    5.1                          $     21.8
Net Income                           $     35.3   $ 13.5             $    6.4                          $     55.2
Bullion Net Margin                        2.1%       2.0%               1.3%                                1.9%



Both American Eagle Silver Bullion Coin sales and America the Beautiful Silver Bullion Coin sales yielded
operating losses in FY 2012. The $4.4 million loss from American Eagle Silver Bullion Coin sales in FY 2012
was primarily due to the decision to offer American Eagle Silver Bullion Coin production at San Francisco to meet
demand. American Eagle Silver Bullion Coins carried a large portion of San Francisco overhead expenses during
periods of low numismatic sales. As demand decreased, spreading these additional costs to the 18.4 percent fewer
ounces sold during FY 2012 compared to last year.
The America the Beautiful Bullion Coin Program generated a loss of $0.5 million in FY 2012. After the program
launched in calendar year 2010, initial demand exceeded our production for those 2010 coins. In 2011, we increased
production to 126,700 coins per design and sold out the first two design issuances. Demand for the three subsequent
2011 designs, however, received substantially fewer orders, leaving a significant excess inventory once the new
2012 designs were launched. The Mint scaled back production in 2012 to more closely reflect demand, however the
unsellable 2011 coins remained. In FY 2012, the Mint recorded a one-time expense to write down approximately
842,000 ounces of this unsellable inventory, impacting the operating results for this program by $0.7 million.


                                                                16
se Metal
Metal    Daily
      Daily    Official
            Official    Spot
                     Spot    Price
                          Price
                          Base Metal
                                    PALLADIUM BULLION COINS
                                   (prices
                                (prices perper
                                        Daily  metric tonne
                                               Official
                                            metric tonneSpot in dollars)
                                                                Price (prices per metric tonne in dollars)
                                                         in dollars)

                                    On December 14, 2010, President Obama signed the American Eagle Palladium Bullion Coin Act of 2010 (Public
                                    Law 111-303). This legislation authorizes the Secretary of the Treasury to mint and issue a $25 coin weighing one
                                    troy ounce and containing .9995 fine palladium. The legislation specifies that a reputable independent third-party
                                    will analyze whether there is adequate demand for palladium bullion coins, and if so, whether the coins could be
                                    minted at no net cost to taxpayers. If the third party’s marketing study demonstrated a palladium bullion coin
                                    program would meet these criteria, then the Mint would be mandated to commence a program within one year.
          Sep-09
        Sep-09               Sep-10
                          Sep-10
                                    TheSep-11
                                          Mint
                                          Sep-11
                                                 contracted
                                                     Sep-12
                                                  Sep-12
                                                             with an independent
                                                                              Sep-08
                                                                            Sep-08
                                                                                     research
                                                                                         Sep-09
                                                                                       Sep-09
                                                                                                firm
                                                                                                 Sep-10
                                                                                                        to conduct
                                                                                                    Sep-10
                                                                                                   Sep-08      Sep-11
                                                                                                            Sep-11
                                                                                                              Sep-09
                                                                                                                      the   study and
                                                                                                                           Sep-12
                                                                                                                        Sep-12
                                                                                                                          Sep-10   Sep-11
                                                                                                                                         will  report
                                                                                                                                              Sep-08
                                                                                                                                           Sep-08
                                                                                                                                               Sep-12
                                                                                                                                                      toSep-09
                                                                                                                                                           the Secretary
                                                                                                                                                      Sep-09      Sep-10
                                                                                                                                                                Sep-10
                                                                                                                                                                 Sep-08
                                                                                                                                                                         of   the
                                                                                                                                                                           Sep-11
                                                                                                                                                                         Sep-11
                                                                                                                                                                          Sep-09
                                                                                                                                                                                                                                        Sep-12
                                                                                                                                                                                                                                      Sep-12
                                                                                                                                                                                                                                       Sep-10     Sep-11   Se
                          Sep-08       Sep-09      Sep-10   Sep-11   Sep-12
                                    Treasury and Congress on the findings in FY 2013.




 cious
ous    Metal
    Metal    Daily
          Daily    Spot
                Spot    Price
                     Price    (prices
                        Precious
                           (prices perper
                                       troytroy
                                   Metal        ounce
                                            Daily
                                             ounceSpot in dollars)
                                                          Price (prices per troy ounce in dollars)
                                                   in dollars)




          Sep-09
        Sep-09              Sep-10
                          Sep-10              Sep-11
                                            Sep-11              Sep-12
                                                              Sep-12                              Sep-12       Sep-08                                Sep-11        Sep-12              Sep-08
                                                                                                                                                                                     Sep-08          Sep-09
                                                                                                                                                                                                  Sep-09        Sep-10
                                                                                                                                                                                                              Sep-10        Sep-11
                                                                                                                                                                                                                          Sep-11        Sep-12
                                                                                                                                                                                                                                      Sep-12               Sep
                         Sep-08            Sep-09            Sep-10             Sep-11                       Sep-08       Sep-09
                                                                                                                        Sep-09         Sep-10
                                                                                                                                    Sep-10
                                                                                                                                   Sep-08         Sep-11
                                                                                                                                                Sep-09          Sep-12
                                                                                                                                                              Sep-10        Sep-11            Sep-12             Sep-08      Sep-09      Sep-10   Sep-11




                                                                                                                                        17
2012 star-spangled banner commemorative coin program


                         18
RESPONSIBLY EXPAND THE NUMISMATIC PROGRAM

The Mint’s numismatic program provides high-quality versions of circulating coinage, precious metal coins,
commemorative coins, and medals for sale to the public. Most of our recurring products—such as United States
Mint Uncirculated Coin Sets®, United States Mint Proof Sets®, and United States Mint Silver Proof Sets®—are
required by federal statute. Others, such as commemorative coins and Congressional Gold Medals, are required by
individual public laws. A main objective of the numismatic program is to increase our customer base and foster sales
while controlling costs and keeping prices as low as practicable.
NUMISMATIC RESULTS
Numismatic product sales decreased 23.3 percent to 5.6 million                                    Top Selling Numismatic Products
                                                                                                         (units sold in thousands)
units in FY 2012 compared to 7.3 million units in FY 2011. Numis-
                                                                                        2012 American Eagle Silver
matic revenue decreased 33.3 percent to $481.2 million in FY 2012                           Proof One Ounce Coin
                                                                                                                                            722

from $721.7 million in FY 2011.                                                                     2012 Proof Set                    548

There are two main reasons for lower sales:                                                   2012 Silver Proof Set          303

• Gold and platinum proof coin product revenue decreased $208.4              2012 Uncirculated Set      297

   million compared to last year. Sales of 2010 numismatic gold                     2011 Proof Set      246
   coin products last year were atypically high, because of pent-up
   demand after they were not offered in FY 2010. There was
   no comparable situation early in this fiscal year as the 2011 gold coins were sold throughout last year. We sold
   142,830 fewer gold and platinum coin products this year than last year.
• A
   nnual core numismatic set revenues decreased $41.7 million compared to last year mainly because products
  went on sale later this year than last year. We released the 2012 United States Mint Proof Set®, 2012 United States
  Mint Silver Proof Set®, and 2012 United States Mint Uncirculated Coin Set® in the third quarter, rather than in the
  second quarter as we did in 2011.
The 2012 American Eagle One Ounce Silver Proof Coin, the 2011 American Eagle 25th Anniversary Silver Coin
Set, the 2011 American Eagle Gold Proof Four-Coin Set, and the 2012 American Buffalo One Ounce Gold Proof
Coin generated the most numismatic revenue in FY 2012. The 2012 American Eagle One Ounce Silver Proof and
the 2012 United States Mint Proof Set® were the most popular sellers (per unit) this year.


NUMISMATIC (dollars in millions)
                                                                                                                               % Change
                                            2012              2011             2010              2009                 2008     2011 to 2012

Sales Revenue                            $ 481.2          $ 721.7           $ 413.1           $ 440.0           $  557.2            (33.3%)
Gross Cost                               $ 407.3          $ 608.5           $ 363.3           $ 398.9           $  474.8            (33.1%)
 Cost of Goods Sold                      $ 346.1          $ 543.8           $ 298.6           $ 329.7           $  388.1            (36.4%)
 Selling, General & Administrative       $ 61.2           $  64.7           $ 64.7            $ 69.2            $   86.7             (5.4%)
Net Income & Seigniorage                 $ 73.9           $ 113.2           $ 49.8            $ 41.1            $   82.4            (34.7%)
Numismatic Net Margin                      15.4%            15.7%             12.1%              9.3%             14.8%
Seigniorage Portion                      $ 22.9           $   9.8           $ 12.0            $ 19.3            $   22.5           (133.7%)

Seigniorage portion results from the sale of circulating coins (boxes, bags, and rolls) directly to the public through the numismatic channels.




                                                                     19
Numismatic program net income and seigniorage decreased 34.7 percent to $73.9 million in FY 2012 from $113.2
million in FY 2011. Numismatic COGS decreased 36.4 percent to $346.1 million from $543.8 million in FY 2011
because sales volumes (and the corresponding revenue) decreased. COGS decreased slightly relative to revenue,
comprising 71.9 percent of numismatic revenue in FY 2012 compared with 75.3 percent last year. SG&A expenses
decreased $3.5 million compared to last year, mainly due to a 56.3 percent decrease in advertising and promotional
spending. Numismatic net margin decreased to 15.4 percent in FY 2012 from 15.7 percent in FY 2011 because
SG&A expenses comprised a greater percent of sales revenue. Because fewer units were sold and revenue was
lower, SG&A was 12.7 percent of numismatic revenues compared to 9 percent last year.
Annual core sets generated a loss of $2.7 million in FY 2012 as we offered some of our annual core set products
at reduced prices to encourage greater price accessibility for a broader range of interested collectors.


NUMISMATIC REVENUE, COST AND NET INCOME OR SEIGNIORAGE BY PROGRAM
(dollars in millions)

2012                  Gold and Platinum Silver Coin Annual        Quarter    Presidential and    Commemorative Miscellaneous       Total
                      Coin Products     Products    Core Sets     Products   First Spouse Medals

Sales Revenue         $ 161.5           $ 150.5      $   65.7     $   18.9   $    35.4         $    29.0       $    20.2       $ 481.2
Gross Cost            $ 142.1           $ 101.3      $   68.4     $   19.0   $    17.8         $    28.8       $    29.9       $ 407.3
 Cost of Goods Sold   $ 140.2           $ 83.9       $   49.6     $   13.6   $    10.7         $    23.7       $    24.4       $ 346.1
 Sellers, General
 & Administrative     $    1.9          $   17.4     $   18.8     $    5.4   $     7.1         $     5.1       $     5.5       $    61.2
Net Income
& Seigniorage         $   19.4          $   49.2     $   (2.7)    $   (0.1) $     17.6         $     0.2       $    (9.7)      $    73.9
Numismatic
Net Margin                12.0%             32.7%        (4.1%)       (0.5%)     49.7%               0.7%          (48.0%)          15.4%
Seigniorage Portion   $      –          $       –    $      –   $      2.2 $     17.6          $      –        $     3.1       $    22.9

2011                  Gold and Platinum Silver Coin Annual        Quarter    Presidential and    Commemorative Miscellaneous       Total
                      Coin Products     Products    Core Sets     Products   First Spouse Medals

Sales Revenue         $ 369.9           $ 129.2      $ 107.4      $   22.3   $   21.0          $   43.2        $   28.7        $ 721.7
Gross Cost            $ 315.8           $ 76.0       $ 96.8       $   21.9   $   12.8          $   35.5        $   49.7        $ 608.5
 Cost of Goods Sold   $ 312.6           $ 63.6       $ 72.9       $   17.6   $    8.2          $   30.5        $   38.4        $ 543.8
 Sellers, General
 & Administrative     $    3.2          $   12.4     $   23.9     $    4.3   $    4.6          $    5.0        $   11.3        $     64.7
Net Income
& Seigniorage         $   54.1          $   53.2     $   10.6     $    0.4   $    8.2          $    7.7        $ (21.0)        $ 113.2
Numismatic
Net Margin                14.6%             41.2%         9.9%        1.8%       39.0%             17.8%           (73.2%)          15.7%
Seigniorage Portion   $      –          $      –  $         –     $    2.3 $      5.8          $      –        $     1.7       $     9.8

2010                  Gold and Platinum Silver Coin Annual        Quarter    Presidential and    Commemorative Miscellaneous       Total
                      Coin Products     Products    Core Sets     Products   First Spouse Medals

Sales Revenue         $ 213.8           $      –     $   94.5     $   23.3   $   24.1          $   20.1        $   37.3        $ 413.1
Gross Cost            $ 195.4           $    1.3     $   83.4     $   18.0   $   15.3          $   18.4        $   31.5        $ 363.3
 Cost of Goods Sold   $ 172.9           $    1.3     $   71.4     $   14.7   $   11.2          $   14.9        $   12.2        $ 298.6
 Sellers, General
 & Administrative     $   22.5          $      –     $   12.0     $    3.3   $    4.1          $    3.5        $   19.3        $    64.7
Net Income
& Seigniorage         $   18.4          $    (1.3)   $   11.1     $    5.3   $    8.8          $    1.7        $    5.8        $    49.8
Numismatic
Net Margin                 8.6%                          11.7%        22.7%      36.5%              8.5%           15.5%            12.1%
Seigniorage Portion   $      –          $      –     $      –     $    4.2 $      5.8          $      –        $    2.0        $    12.0


                                                                 20
NEW PRODUCT highlights
Several limited-edition products were offered this year. The Mint sold an American Eagle 25th Anniversary Silver
Coin Set with five one-ounce silver numismatic coins minted in West Point and San Francisco. It sold out within
five hours, contributing $30 million in revenue. The American Eagle San Francisco Two-Coin Silver Proof Set sold
179,921 units between June 7 and July 5. This product was produced to true demand as orders were taken prior to
production, rather than the Mint estimating a production run and then offering the sets for sale.
Another new product, the Making American History Coin and Currency Set, celebrated the Mint’s 220-year
anniversary and the Bureau of Engraving and Printing’s 150-year anniversary. It included a 2012 American Eagle
One Ounce Silver Proof Coin with an “S” mint mark and a Series 2009 $5 note. It sold 40,929 units and contributed
$3.0 million in revenue. The 2012 United States Mint Birth Set, a new annual set designed to mark the arrival of a
baby, contributed revenue of $0.6 million in FY 2012.
The Mint sold America the Beautiful Quarters® Program collectible bags and rolls with coins minted at San
Francisco. These circulating-quality coins are the first to be produced in San Francisco since 1980. These “S” mint
mark quarters were sold solely to the public through numismatic channels, rather than issued as circulating coins.
For those collecting Presidential $1 Coins, a circulating quality four-coin set with either a Philadelphia or Denver
mint-mark was available; in previous years, they were produced only in proof or uncirculated quality sets.
COMMEMORATIVE productS
Congress passes legislation authorizing commemorative coins or commemorative medals to honor people, places,
events or other subjects, and the President signs the legislation into law. The price of these coins and medals includes
a surcharge authorized to be paid to a designated recipient organization. We launched two commemorative coin
programs in FY 2012: the 2012 Star-Spangled Banner Commemorative Coin Program and the 2012 Infantry Soldier
Silver Dollar.
Three other commemorative products were available for sale. The United States Army Commemorative Coin
Program generated $1.8 million in revenue and $230,675 in eligible surcharges for the recipient organization, the
Army Historical Foundation. The Medal of Honor Commemorative Coin Program generated $2.2 million in revenue
and $268,570 in eligible surcharges for the recipient organization, the Congressional Medal of Honor Foundation.
Additionally, the September 11 National Medal generated $0.9 million in revenue and $119,360 in eligible surcharges,
authorized to be paid to the National September 11 Memorial & Museum at the World Trade Center.
COngressional MEDALS
We prepared and struck three Congressional Gold Medals in FY 2012: the Montford Point Marines Congressional
Gold Medal, the New Frontier Congressional Gold Medal and the Nisei Soldiers of World War II Congressional
Gold Medal. We produced and sold bronze duplicates of these medals.
IMPROVING CUSTOMER SERVICE
The performance of our numismatic program depends heavily on whether we effectively meet our customers’
expectations, so the Mint conducts satisfaction surveys each quarter. Customers evaluate the quality of the Mint’s
service and products.
Customers rated the Mint favorably at 90 percent in FY 2012, down from 91.7 percent in FY 2011. The number
of customers satisfied with the Mint as a provider of numismatic items has fluctuated over the past few years, largely
based on our ability to offer popular products and process orders seamlessly during periods of peak demand.
We continuously look for effective ways to improve the customer experience, including the order management
system. The completed system will be capable of successfully processing orders during peak demand periods,
relieving a point of stress and frustration for customers and the Mint alike.




                                                          21
new frontier bronze medal


           22
FOSTER A SAFE, ENGAGED, AND INNOVATIVE WORKFORCE

It is our goal to have a safe, engaged and innovative workforce, making the Mint the employer of choice for current
and future employees. Embracing innovative practices by engaging modern technologies and becoming more
environmentally sustainable not only benefits our employees, but also benefits the American public.
Safety first
                                                                          Rate of Injury and Illness Cases per 100 Full-Time Workers
Injury and illness rates in our manufacturing facilities
have risen over the past two years, but are still lower              14

than industry standards. In FY 2012, the recordable                  12

injury and illness case rates rose 27 percent to 3.5                 10
from 2.74 in FY 2011. We did not meet our goal of
                                                                      8
3.24, but we were below the average rate of 7.8 for
                                                                      6
forging and stamping manufacturers.
                                                                      4
Material handling is the primary cause of injuries.
                                                            2
Strains, sprains and tears, typically an indication of
ergonomic hazards, accounted for the majority of            0
                                                               1998 1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010 2011 2012
injuries in FY 2012. We created management safety
steering teams to continually reinforce a culture of
operating safely for all Mint employees. We are launching facility-specific leading measures to gain a more detailed
understanding of the drivers of our recordable safety incidents.
EMPLOYEE DEVELOPMENT
The Mint is committed to improving employee development and training, and has created several programs to
prepare employees for the next step in his or her career. Two programs, the Leadership Development Program and
the Employee Development Program, focus on expanding skills so employees improve their performance in the
Mint, as well as grow their transferable skill set.
In addition, some Mint facilities have expanded training for those in manufacturing. Employees participating in
San Francisco’s Operator Certification and Apprenticeship Program (OCAP) can become certified as metal-forming
machine operators, material treatment machine operators, and heat treaters and die finishers. All new San Francisco
Coining Division employees are required to become OCAP certified, while those whose employment preceded the
implementation of OCAP may voluntarily participate.
The Mint also collaborated with the Bureau of Engraving and Printing to offer a Supervisory Skill Building
Program. This training was a result of the Strategic Alignment Initiative, a partnership between the two bureaus.
Over the course of several months, through a combination of in-person, on-line training and video conferencing
sessions, supervisors learned and practiced how to handle conflict competently, how to motivate staff, and how to
create a positive and productive performance culture.
Work/life balance and technology
One of the ways the Mint promotes work-life balance is through its telework policy. In FY 2011, the policy was
updated to meet the requirements of the Telework Enhancement Act of 2010 (Public Law 111-292). This Act has
three objectives: to improve continuity of operations, to promote management effectiveness and to enhance
work-life balance. As a result, 146 employees now have telework agreements, compared to 120 in FY 2011.




                                                                  23
Sustainability efforts
The Mint has concentrated on making substantial changes to our buildings and production operations to lessen our
carbon footprint. This year, the headquarters building received a Gold Level LEED Certification; the Mint received
the Federal Electronics Challenge Gold Award; and the Denver Mint received the Gold Award from the Metro
Wastewater Reclamation District.
Since 2009, the Mint has reduced greenhouse gas emissions by 36 percent, exceeding Treasury’s goal of 33 percent
by 2020. In the past three years each location has made changes that support the sustainability effort. The Denver
Mint purchases renewable energy, San Francisco installed a green roof and developed a van pool program, and Fort
Knox installed a geothermal heat pump.
In 2012, the Mint initiated several more sustainability projects. In Philadelphia, the Mint is working with an energy
service company to implement a plan to reduce energy intensity by 27 percent. The Denver and Philadelphia Mints
implemented a “sleep mode” on their circulating coin presses to reduce total energy use by 2 percent. Philadelphia,
Denver, and San Francisco operate with two shifts, rather than three, which reduces energy use by allowing us to
turn off building equipment when not in use. The West Point facility has been accepted into the Department of
Energy’s Superior Energy Performance program, a multi-year program which provides industrial facilities with
a plan for improving energy efficiency while staying competitive.
We are committed to changing the way we operate – not only to save energy, but also to remain cost efficient.




                                                         24
Analysis of Systems, Controls and Legal Compliance

The United States Mint is responsible for establishing and maintaining effective internal controls over financial
reporting and has made a conscious effort to meet the internal controls requirements of the Federal Managers’ Financial
Integrity Act (FMFIA), the Federal Financial Management Improvement Act (FFMIA), Office of Management and
Budget (OMB) Circular A-123, and the Reports Consolidation Act of 2000. The organization under my purview is
operating in accordance with the procedures and standards prescribed by the Comptroller General and OMB guidelines.
The systems of management control for the United States Mint organization under my purview are designed to
ensure that:
•   programs achieve their intended results;
•   resources are used consistent with overall mission;
•   programs and resources are free from waste, fraud, and mismanagement;
•   laws and regulations are followed;
•   controls are sufficient to minimize any improper or erroneous payments;
•   performance information is reliable;
•   system security is in substantial compliance with all relevant requirements;
•   continuity of operations planning in critical areas is sufficient to reduce risk to reasonable levels; and
•   financial management systems are in compliance with federal financial systems standards, (i.e., FMFIA Section
     4 and FFMIA).
For all United States Mint responsibilities, we provide herein unqualified assurance that the above listed manage-
ment control objectives, taken as a whole, were achieved by our organization during FY 2012. Specifically, this
assurance is provided in accordance with Sections 2 and 4 of the FMFIA. We further assure that our financial
management systems are in substantial compliance with the requirements imposed by the FFMIA.
The United States Mint management is responsible for establishing and maintaining adequate internal control over
financial reporting, which includes safeguarding of assets and compliance with laws and regulations. We conducted
the required Treasury evaluation of the effectiveness of the United States Mint internal controls over financial
reporting in accordance with OMB Circular A-123, Management’s Responsibility for Internal Control. Based on
the results of this evaluation, we can provide unqualified assurance that internal controls over financial reporting as
of June 30, 2012, are operating effectively and no material weaknesses were found in the design or operation of the
internal controls over financial reporting.
The 2007 Native American $1 Coin Act (Public Law 110-82), as codified at 31 U.S.C. § 5112(r)(5), requires that at
least 20 percent of all $1 coins minted and issued in any year are Native American $1 Coins. Unfortunately, in 2010
and 2011, even though the United States Mint minted Native American $1 Coins in amounts greater than 20 percent
of the total number of all $1 coins minted, it was not able to meet the 20 percent issuance requirement in those years.




                                                          25
In addition, the Mint is committed to maintaining effective internal control, as demonstrated by the following actions:
• A nnual audits of the United States Mint’s financial statements pursuant to the Chief Financial Officers’ Act,
   as amended, including a) information revealed in preparing the financial statements; b) auditor’s reports on the
   financial statements; and c) internal controls and compliance with laws and regulations and other materials related
   to preparing financial statements.
• Annual performance plans, reviews, and reports pursuant to the Government Performance Results Act, which
   include analysis and evaluation of performance measures.
• The development, tracking, and closure of corrective actions identified in the Financial Statement Audit and OMB
   Circular A-123 Assessment.
• Internal management and program reviews conducted for the purpose of assessing management controls.
• Reviews of financial systems for requirements compliance in conjunction with OMB Circular A-123 and FFMIA.
• Reviews of systems, applications, and contingency plans conducted pursuant to the Computer Security Act
   of 1987 (40 U.S.C. 759 note) and OMB Circular A-130, Management of Federal Information Resources.
• Annual assessments, reviews, and reporting performed in compliance with the Improper Payments Elimination
   and Recovery Act of 2010 (IPERA).
• Reviews and reporting in compliance with the Federal Information Security Management Act (FISMA).
The United States Mint continues to make improvement in maintaining effective internal control over financial
reporting and is committed to monitoring and improving its internal controls throughout the entire organization.




                                                          26
Limitations of the Financial Statements

The principal financial statements have been prepared to report the financial position and results of operations
of the Mint, pursuant to the requirements of 31 U.S.C. § 3515(b). The statements have been prepared from the books
and records of the Mint in accordance with generally accepted accounting principles for federal entities and the
formats prescribed by the Office of Management and Budget. The statements are in addition to the financial reports
used to monitor and control budgetary resources, which are prepared from the same books and records. The
statements should be read with the realization that they are for a component of the United States Government.




                                                       27
Message from the Chief Financial Officer:

As the CFO, I am pleased to present the Mint’s financial statements as part of the FY
2012 Annual Report. It is our priority to report accurate financial data while objectively
and consistently executing our fiscal responsibilities in a diligent and efficient manner.
For FY 2012, our independent auditors rendered an unqualified opinion on these
financial statements.

The Mint faced a number of fiscal challenges in FY 2012, as revenue and net income
were lower across all three business lines. In the circulating program, seigniorage was
down as we suspended minting and issuing the Presidential $1 Coin. We met the FRB’s                       David Motl
orders for pennies and nickels but for the seventh consecutive year these denominations               United  States Mint
were produced at a loss. Demand for numismatic products decreased and the demand for                Chief Financial Officer
bullion products continued to be volatile. The Mint made no off-budget transfers to the
General Fund this fiscal year. Instead, the Mint determined that all amounts in the PEF resulting from FRB receipts
on the sale of circulating coins were required to mitigate the risks of future potential economic uncertainty, impacts
to our circulating program from continued penny and nickel losses, and loss of revenue from the suspension
of $1 circulating coin production. The transfer to the Treasury General Fund was $77 million.

In addition to limiting the transfer to the general fund, the Mint continued to focus on reducing its operating costs in
FY 2012. Our efforts included in-depth reviews of budgets, contracts, resources, and inventories. As a result of the
Mint’s efforts, general and administrative expenses have decreased 22.5 percent and cost of mint production has
decreased 4.3 percent from FY 2009 levels. In addition, this past year our inventories were reduced by $139.7
million, generating additional operating cash.

The Mint’s fiscal responsibilities include serving as custodians for the majority of the nation’s gold and silver
reserves. In this role, we completed a successful inventory of the Department of the Treasury gold bars and coins
held at the FRB in New York. The inventory was conducted by the Mint with the assistance of FRB.

In FY 2012, the Mint conducted a comprehensive assessment of the effectiveness of internal controls over financial
reporting. Based on the results of this review, we can provide unqualified assurance that internal controls over
financial reporting are operating effectively in accordance with Office of Management and Budget Circular A-123.

The statements presented in this report are in compliance with accounting standards issued by the Federal Account-
ing Standards Advisory Board (FASAB). The FASAB is designated by the American Institute of Certified Public
Accountants as the standard-setting body for the financial statements of Federal government entities, with respect to
establishment of the United States Generally Accepted Accounting Principles.

The Mint has experienced some operational changes in the last few fiscal years. I am glad to report that we have met
these challenges and developed strategies to operate more effectively and efficiently. I am committed to ensuring
that the Mint continually identifies ways to cut costs and operate in the most cost-effective manner possible.

Sincerely,




David Motl, Chief Financial Officer


                                                          28
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                         Independent Auditors’ Report


Inspector General
United States Department of the Treasury

Acting Director
United States Mint:

We have audited the accompanying balance sheets of the United States Mint as of September 30, 2012 and
2011, and the related statements of net cost, and changes in net position, and combined statements of
budgetary resources (hereinafter referred to as “financial statements” or “basic financial statements”) for
the years then ended. These financial statements are the responsibility of the United States Mint’s
management. Our responsibility is to express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the United States
Mint’s internal control over financial reporting. Accordingly, we express no such opinion. An audit also
includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements, assessing the accounting principles used and significant estimates made by management, as
well as evaluating the overall financial statement presentation. We believe that our audits provide a
reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the United States Mint as of September 30, 2012 and 2011, and its net costs, changes
in net position, and budgetary resources for the years then ended in conformity with U.S. generally
accepted accounting principles.

As discussed in Note 1 to the financial statements, the United Stated Mint changed its presentation for
reporting the Combined Statement of Budgetary Resources in fiscal year 2012, based on new reporting
requirements under OMB Circular No. A-136, Financial Reporting Requirements. As a result, the United
States Mint’s Statement of Budgetary Resources for fiscal year 2011 has been reclassified to conform to
the current year presentation.

U.S. generally accepted accounting principles require that the information in the Management’s Discussion
and Analysis, and Required Supplementary Information sections be presented to supplement the basic
financial statements. Such information, although not a part of the basic financial statements, is required by
the Federal Accounting Standards Advisory Board who considers it to be an essential part of financial
                                                                 29
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
reporting for placing the basic financial statements in an appropriate operational, economic, or historical
context. We have applied certain limited procedures to the required supplementary information in
accordance with auditing standards generally accepted in the United States of America, which consisted of
inquiries of management about the methods of preparing the information and comparing the information
for consistency with management’s responses to our inquiries, the basic financial statements, and other
knowledge we obtained during our audits of the basic financial statements. We do not express an opinion
or provide any assurance on the information because the limited procedures do not provide us with
sufficient evidence to express an opinion or provide any assurance.

Our audits were conducted for the purpose of forming an opinion on the basic financial statements as a
whole. The information in the Acting Director’s Letter, Organizational Profile, The United States Mint at a
Glance, Message from the Chief Financial Officer, and Other Accompanying Information and Appendix 1:
FY 2012 Coin and Medal Products is presented for purposes of additional analysis and is not a required
part of the basic financial statements. Such information has not been subjected to the auditing procedures
applied in the audits of the basic financial statements, and accordingly, we do not express an opinion or
provide any assurance on it.

In accordance with Government Auditing Standards, we have also issued our reports dated December 3,
2012, on our consideration of the United States Mint’s internal control over financial reporting and our
tests of its compliance with certain provisions of laws, regulations, and contracts and other matters. The
purpose of those reports is to describe the scope of our testing of internal control over financial reporting
and compliance and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in accordance
with Government Auditing Standards and should be read in conjunction with this report in assessing the
results of our audits.




December 3, 2012




                                                     30
                           Department of the Treasury United States Mint
                                          BALANCE SHEETS
                                               As of September 30, 2012 and 2011

                                                                             2012                            2011
                                                                                    (dollars in thousands)
Assets
Intragovernmental:
  Fund Balance with Treasury (Note 3)				                                $   964,517		                 $      752,742
  Accounts Receivable, Net (Note 4)				                                            –		                            721
  Advances and Prepayments (Note 5)				                                        3,232		                          2,046
Total Intragovernmental Assets					                                          967,749		                        755,509

 Custodial Gold and Silver Reserves (Note 6)			                            10,493,740		                  10,493,740
 Accounts Receivable, Net (Note 4)				                                         12,093		                      18,254
 Inventory (Notes 7 and 20)					                                              361,612		                     501,287
 Supplies							                                                               17,678		                      17,280
 Property, Plant and Equipment, Net (Note 8)			                               182,527		                     185,701
 Advances and Prepayments (Note 5)				                                              1		                           1
Total Non-Intragovernmental Assets				                                   $ 11,067,651		                $ 11,216,263
Total Assets (Notes 2 and 14)					                                       $ 12,035,400		                $ 11,971,772

Heritage Assets (Note 9)

Liabilities
Intragovernmental:
  Accounts Payable						                                                 $    5,641		                  $        5,890
  Accrued Workers’ Compensation and Benefits			                               9,110		                           9,377
Total Intragovernmental Liabilities				                                      14,751		                          15,267

 Custodial Liability to Treasury (Note 6)				                              10,493,740		                  10,493,740
 Accounts Payable						                                                        21,543		                      44,545
 Surcharges Payable (Note 3)					                                              11,179		                      11,673
 Accrued Payroll and Benefits					                                             18,374		                      18,381
 Other Actuarial Liabilities					                                              28,525		                      27,467
 Unearned Revenue						                                                         1,541		                      16,953
 Deposit Fund Liability (Notes 10 and 12)			                                       94		                          94
Total Non-Intragovernmental Liabilities				                              $ 10,574,996		                $ 10,612,853
Total Liabilities (Notes 10 and 14)				                                  $ 10,589,747		                $ 10,628,120

Commitments and Contingencies (Notes 12 and 13)

Net Position
Cumulative Results of Operations - Earmarked Funds (Note 14)	               1,445,653		                   1,343,652
Total Liabilities and Net Position				                                   $ 12,035,400		                $ 11,971,772

The accompanying notes are an integral part of these financial statements.




                                                  31
                         Department of the Treasury United States Mint
                                   STATEMENTS OF NET COST
                                        For the years ended September 30, 2012 and 2011

                                                                                2012                            2011
                                                                                       (dollars in thousands)
Numismatic Production and Sales
 Gross Cost						                                                        $    2,832,988		                 $      4,009,361
 Less Earned Revenue					                                                    (2,912,432)		                      (4,178,594)
Net Program Cost (Revenue)					                                                  (79,444)		                       (169,233)

Numismatic Production and Sales of Circulating Coins
 Gross Cost						                                                                6,765		                             4,685
 Less Earned Revenue (Note 16)				                                              (6,765)		                           (4,685)
Net Program Cost						                                                               –		                                 –

Circulating Production and Sales
 Gross Cost						                                                              387,434		                          428,130
 Less Earned Revenue (Note 16)				                                            (387,434)		                        (428,130)
Net Program Cost						                                                               –		                                –

Net Program Cost (Revenue) Before Protection of Assets		                       (79,444)		                        (169,233)

Protection of Assets
 Protection Costs						                                                        42,195		                            41,570
 Less Earned Revenue					                                                           –		                                 –
Net Cost of Protection Assets					                                             42,195		                            41,570

Net Cost (Revenue) from Operations (Notes 14 and 15)		                   $     (37,249)		                 $      (127,663)

The accompanying notes are an integral part of these financial statements.




                                                  32
                         Department of the Treasury United States Mint
                             STATEMENTS OF CHANGES IN NET POSITION
                                        For the years ended September 30, 2012 and 2011

                                                                               2012                            2011
                                                                                      (dollars in thousands)
Cumulative Results of Operations

Net Position, Beginning of Year - Earmarked Funds (Note 14)	             $   1,343,652		                 $      895,071

Financing Sources:
  Transfers to the Treasury General Fund On-Budget (Note 19)		                 (77,000)		                         (51,000)
  Other Financing Sources (Seigniorage) (Note 16)			                           128,709		                         358,577
  Imputed Financing Sources (Note 11)				                                       13,043		                           13,341
Total Financing Sources					                                                    64,752		                         320,918
Net Revenue from Operations (Note 15 and 21)			                                 37,249		                         127,663
Net Position, End of Year - Earmarked Funds (Note 14)		                  $   1,445,653		                 $     1,343,652

The accompanying notes are an integral part of these financial statements.




                                                  33
                         Department of the Treasury United States Mint
                              STATEMENTS OF BUDGETARY RESOURCES
                                        For the years ended September 30, 2012 and 2011

                                                                                2012                            2011
                                                                                       (dollars in thousands)
Budgetary Resources:
Unobligated balance, brought forward, October 1			                       $   413,094		                    $       110,993
Recoveries of prior-year unpaid obligations			                                51,025		                             43,873
Other changes in unobligated balance				                                     (77,000)		                           (51,000)
Spending Authority from Offsetting Collections			                          3,413,037		                          4,984,118
Total Budgetary Resources					                                           $ 3,800,156		                    $     5,087,984

Status of Budgetary Resources:
Obligations Incurred (Note 17)					                                      $ 3,106,304		                    $ 4,674,890
Unobligated balance, end of year
	         Apportioned					                                                   669,760		     413,094
	         Unapportioned					                                                  24,092			          –
Total Unobligated balance, end of year				                                   693,852		     413,094
Total Budgetary Resources					                                           $ 3,800,156		 $ 5,087,984

Change in Obligated Balances:
Unpaid obligations, brought forward, October 1			                        $    346,248		                   $      228,454
Less: Uncollected customer payments from Federal		
  sources, brought forward, October 1				                                         (6,694)		                        (7,598)
	          Obligated balance, start of year				                                 339,554		                        220,856
Obligations Incurred (Note 17)					                                           3,106,304		                      4,674,890
Outlays (gross)						                                                        (3,125,026)		                    (4,513,223)
Change in uncollected customer payments from Federal sources	                        764		                            903
Recoveries of Prior Year Unpaid Obligations			                                   (51,025)		                       (43,873)
Obligated Balance, end of year
	          Unpaid obligations, end of year				                                276,501		                          346,248
	          Uncollected customer payments from Federal sources,	                (5,930)		                          (6,694)
	            end of year
Obligated Balance, End of Year				                                       $    270,571		                   $      339,554

Budget Authority and Outlays, Net
Budget Authority, gross					                                                3,413,037		                        4,984,118
Actual offsetting collections					                                         (3,413,801)		                      (4,985,021)
Change in uncollected customer payments from Federal Sources	                     764		                              903
Outlay, gross						                                                         3,125,026		                        4,513,223
Actual offsetting collections					                                         (3,413,801)		                      (4,985,021)
Outlays, Net						                                                       $ ($288,775)		                        ($471,798)

The accompanying notes are an integral part of these financial statements.




                                                  34
Notes to the Financial Statements
For the Years Ended September 30, 2012 and 2011


         1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES
         REPORTING ENTITY Established in 1792, the United States Mint (Mint) is a bureau of the Depart-
         ment of the Treasury (Treasury). The mission of the Mint is as follows: To manufacture and distribute
         circulating coins, precious metals and collectible coins, and national medals to meet the needs of the
         United States. Numismatic products include medals; proof coins; uncirculated coins; platinum, gold,
         and silver bullion coins; commemorative coins; and related products or accessories. Custodial assets
         consist of the Treasury-owned gold and silver reserves. These custodial assets are often referred to as
         “deep storage” and “working stock,” and are reported on the Balance Sheet.
         The production of numismatic products is financed through sales to the public. The production of
         circulating coinage is financed through sales of coins at face value to the Federal Reserve Banks
         (FRB). Additionally, the Mint sells certain circulating products directly to the public as numismatic
         items. Activities related to protection of Treasury-owned custodial assets are funded by the United
         States Mint Public Enterprise Fund (PEF).
         Pursuant to Public Law 104-52, Treasury, Postal Service, and General Government Appropriation Act
         for FY 1996, as codified at 31 U.S.C. § 5136, the PEF was established to account for all receipts and
         expenses related to production and sale of numismatic items and circulating coinage, as well as
         protection activities. Expenses accounted for in the PEF include the entire cost of operating the Mint.
         Any amount in the PEF that is determined to be in excess of the amount required by the PEF is
         transferred to the Treasury General Fund.
         Treasury’s Bullion Fund (Bullion Fund) is used to account for Treasury-owned gold and silver reserves.
         A separate Schedule of Custodial Deep Storage Gold and Silver Reserves has been prepared for the deep
         storage portion of the Treasury-owned gold and silver reserves for which the Mint acts as custodian.
         BASIS OF ACCOUNTING AND PRESENTATION The accompanying financial statements were
         prepared based on the reporting format promulgated by Office of Management and Budget (OMB)
         Circular A-136, Financial Reporting Requirements, and in accordance with accounting standards
         issued by the Federal Accounting Standards Advisory Board (FASAB). The Mint’s financial statements
         have been prepared to report the financial position, net cost of operations, changes in net position, and
         budgetary resources, as required by 31 U.S.C. § 5134.
         Management uses estimates and assumptions in preparing financial statements. Those estimates and
         assumptions affect the reported amounts of assets and liabilities, the disclosure of contingent assets and
         liabilities, and the reported revenues and expenses. Actual results could differ from those estimates.
         Accounts subject to estimates include, but are not limited to, depreciation, imputed costs, payroll and
         benefits, accrued worker’s compensation, allowance for uncollectible accounts receivable, and
         unemployment benefits.
         The accompanying financial statements have been prepared on the accrual basis of accounting. Under
         the accrual method, revenues and other financing sources are recognized when earned and expenses are
         recognized when a liability is incurred, without regard to receipt or payment of cash.




                                                     35
EARNED REVENUES AND OTHER FINANCING SOURCES (SEIGNIORAGE)
Numismatic Sales: Revenue from numismatic sales to the public is recognized when products are
shipped to customers. Prices for most numismatic products are based on the product cost plus a
reasonable net margin. Bullion coins are priced based on the market price of the precious metals plus
a premium to cover manufacturing, marketing, and distribution costs.
Numismatic Sales of Circulating Coins: Specially packaged products containing circulating coins sold
directly to the public rather than to the FRB. These products are treated as a circulating and numismatic
hybrid product. Revenue is recognized when products are shipped to customers.
Circulating Sales: The PEF provides for the sale of circulating coinage at face value to the FRB.
Revenue from the sale of circulating coins is recognized when the product is shipped to the FRB.
Revenue from the sale of circulating coins to the FRB and numismatic sales of circulating coins to
the public is limited to the recovery of the cost of manufacturing and distributing those coins.
Seigniorage is not counted as part of revenue.
Other Financing Source (Seigniorage): Seigniorage equals the face value of newly minted coins, less
the cost of production (which includes the cost of metal, manufacturing, and transportation). Seigniorage
adds to the government’s cash balance, but unlike the payment of taxes or other receipts, it does not
involve a transfer of financial assets from the public. Instead, it arises from the exercise of the govern-
ment’s sovereign power to create money and the public’s desire to hold financial assets in the form of
coins. Therefore, the President’s budget excludes seigniorage from receipts and treats it as a means of
financing.
Rental Revenue: The Mint sublets office space at cost to other federal entities in the two leased
buildings in Washington, D.C. The lease expired on one of these buildings on Oct. 31, 2011. A
commercial vendor subleases a portion of the first floor space of the building at 801 9th Street, NW.
FUND BALANCE WITH TREASURY All cash is maintained at the Treasury. Fund Balance with
Treasury is the aggregate amount of the Mint’s cash accounts with the United States Government’s
central accounts and from which the Mint is authorized to make expenditures. It is an asset because it
represents the Mint’s claim to United States Government resources.
ACCOUNTS RECEIVABLE Accounts receivable are amounts due to the Mint from the public and
other federal entities. An allowance for uncollectible accounts receivable is established for all accounts
that are more than 180 days past due. However, the Mint will continue collection action on those accounts
that are more than 180 days past due, as specified by the Debt Collection Improvement Act of 1996.
INVENTORIES Inventories of circulating and numismatic coinage are valued at either cost or market,
whichever is lower. Costs of the metal and fabrication components of the inventories are determined
using a weighted average inventory methodology. Conversion costs (i.e., the cost to convert the
fabricated blank into a finished coin) are valued using a standard cost methodology. The Mint uses three
classifications for inventory: raw material (raw metal, unprocessed coil, or blanks); work-in-process
(WIP – material being transformed to finished coins); and finished goods (coins that are packaged or
bagged and ready for sale or shipment to the public or the FRB).




                                            36
TREASURY-OWNED CUSTODIAL GOLD AND SILVER RESERVES Treasury-owned gold and
silver reserves consist of both “deep storage” and “working stock” gold and silver.
Deep Storage is defined as that portion of the Treasury-owned gold and silver reserves which the Mint
secures in sealed vaults. Deep storage gold comprises the vast majority of the bullion reserve and
consists primarily of gold bars. Deep storage silver is also primarily in bar form.
Working Stock is defined as that portion of the Treasury-owned gold and silver bullion reserves which
the Mint can use as the raw material for minting coins. Working stock gold comprises only about one
percent of the gold bullion reserve and consists of bars, blanks, unsold coins, and condemned coins.
Similarly, working stock silver consists of bars, blanks, unsold coins, and condemned coins.
Treasury allows the Mint to use some of its gold as working stock in the production of gold coins. This
allows the Mint to avoid the market risk associated with buying gold far in advance of the sales date
of the gold coins. The Mint replenishes the Treasury gold working stock at or just prior to the time
the coins are sold. Generally, the Mint does not deplete the working stock used in production. Instead,
the Mint will purchase a like amount of gold on the open market to replace the working stock used.
Treasury also allows the Mint to use silver as working stock. However, Treasury does not have enough
silver to fulfill all Mint manufacturing needs. Accordingly, for the purpose of avoiding market risk
associated with owning silver, the Mint has entered into a silver hedging arrangement (see Note 20).
SUPPLIES Supplies are items that are not considered inventory and are not a part of the finished
product. These items include plant engineering and maintenance supplies, as well as die steel and coin
dies. Supplies are accounted for using the consumption method, in which supplies are recognized as
assets upon acquisition and expensed as they are consumed.
ADVANCES AND PREPAYMENTS Payments in advance of the receipt of goods and services are
recorded as an asset at the time of prepayment, and are expensed when related goods and services
are used.
PROPERTY, PLANT AND EQUIPMENT Property, plant, and equipment are valued at cost, less
accumulated depreciation. The Mint’s threshold for capitalizing new property, plant, and equipment is
$25,000 for single purchases and $500,000 for bulk purchases. Depreciation is computed on a straight-
line basis over the estimated useful lives of the related assets as follows:
	 Computer Equipment					                               3 to 5 years
	Software							2 to 10 years
	 Machinery and Equipment					                          7 to 20 years
	 Structures, Facilities, and Leasehold Improvements			 10 to 30 years

Major alterations and renovations are capitalized over a 20-year period, or the remaining useful life of
the asset (whichever is shorter) and depreciated using the straight-line method, while maintenance and
repair costs are charged to expense as incurred. There are no restrictions on the use or convertibility of
general property, plant, and equipment.
HERITAGE ASSETS Heritage assets are items that are unique because of their historical, cultural,
educational or artistic importance. These items are collection-type assets that are maintained for
exhibition and are preserved indefinitely.




                                             37
Liabilities Liabilities represent actual and estimated amounts likely to be paid as a result of
transactions or events that have already occurred. All liabilities covered by budgetary resources can
be paid from revenues received by the PEF.
SURCHARGES Legislation authorizing commemorative coin and medal programs often requires that
the sales price of each coin include an amount, called a surcharge, which is authorized to provide funds
to a qualifying organization or group of organizations for the purposes specified. A surcharges payable
account is established for surcharges collected, but not yet paid, to designated recipient organizations.
Recipient organizations cannot receive surcharge payments unless all of the Mint’s operating costs
for the coin program are fully recovered. The Mint may make interim surcharge payments during a
commemorative program if the recipient organization meets the eligibility criteria in the authorizing
legislation, if the recovery of all costs of the program is determinable, and if the Mint is assured it is
not at risk of a loss. Additionally, recipient organizations must demonstrate that they have raised from
private sources an amount equal to or greater than the surcharges collected based on sales, and recipient
organizations must prove compliance with Title VI of the Civil Rights Act of 1964 and other available
civil rights laws. A recipient organization has two years from the end of the program to meet the
matching funds requirement.
EARMARKED FUNDS Pursuant to 31 U.S.C. SS 5136, the PEF was established as the sole funding
source for Mint activities. The PEF meets the requirements of an earmarked fund as defined in
Statement of Federal Financial Accounting Standard (SFFAS) 27, Identifying and Reporting
Earmarked Funds. As non-entity and non-PEF assets, the Treasury-owned gold and silver bullion
reserves are not considered to be earmarked funds.
UNEARNED REVENUES These are amounts received for numismatic orders which have not yet
been shipped to the customer.
RETURN POLICY If for any reason a numismatic customer is dissatisfied, the entire product must
be returned within seven days of receiving the order to receive a refund or replacement. Shipping
charges are not refunded. Further, the Mint will not accept partial returns or issue partial refunds.
Historically, the Mint receives few returns, which are immaterial. Therefore, no reserve for returns
is considered necessary.
SHIPPING AND HANDLING The Mint reports shipping and handling costs of circulating coins and
numismatic products as a cost of goods sold. General postage costs for handling administrative mailings
are reported as part of the Mint’s general and administrative expenses.
ANNUAL, SICK AND OTHER LEAVE Annual leave is accrued when earned and reduced as leave
is taken. The balance in the accrued leave account is calculated using current pay rates. Sick leave and
other types of non-vested leave are charged to operating costs as they are used.
ACCRUED WORKERS’ COMPENSATION AND OTHER ACTUARIAL LIABILITIES The
Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to cover
Federal civilian employees injured on the job or who have developed a work-related occupational
disease, and to pay beneficiaries of employees whose deaths are attributable to job-related injuries or
occupational disease. The FECA program is administered by the United States Department of Labor
(DOL), which pays valid claims and subsequently seeks reimbursement from the Mint for these
paid claims.




                                            38
The FECA liability is based on two components. The first component is based on actual claims paid by
DOL but not yet reimbursed by the Mint. There is generally a two- to three-year time period between
payment by DOL and DOL’s requesting payment from the Mint. The second component is the actuarial
liability, which estimates the liability for future payments as a result of past events. The actuarial
liability includes the expected liability for death, disability, medical and miscellaneous costs for
approved compensation cases.
PROTECTION COSTS Treasury-owned gold and silver reserves are in the custody of the Mint,
which is responsible for safeguarding the reserves. These costs are borne by the Mint, but are
not directly related to the circulating or numismatic coining operations of the United States Mint.
The Protection Department is a separate function from coining operations and is responsible for
safeguarding the reserves as well as Mint employees and facilities.
OTHER COST AND EXPENSES (MUTILATED AND UNCURRENT) Other costs and expenses
consist primarily of returns of mutilated or uncurrent coins to the Mint. Coins that are chipped, fused,
and/or not machine-countable are considered mutilated. The Mint reimburses the entity that sent in the
mutilated coins, using weight formulas that estimate the face value of these coins. Uncurrent coins are
worn, but machine-countable, and their genuineness and denominations are still recognizable.
Uncurrent coins are replaced with new coins of the same denomination by the FRB. The FRB then
seeks replacement coins from the Mint. All mutilated or uncurrent coins received by the Mint are sold
to its fabrication contractors to be processed into coils or blanks to be used in future coin production.
TAX EXEMPT STATUS As a bureau of the Federal Government, the Mint is exempt from all
taxes imposed by any governing body, whether it is a federal, state, commonwealth, local, or
foreign government.
CONCENTRATIONS The Mint purchases the coil and blanks used in the production of circulating
coins from three vendors at competitive market prices. The Mint also purchases precious metal blanks
from four different suppliers.
Contingent Liabilities Certain conditions may exist as of the date of the financial statements
that may result in a loss to the government, but which will be resolved only when one or more future
events occur or fail to occur. The Mint recognizes a loss contingency when the future outflow or other
sacrifice of resources is probable and reasonably estimable. Loss contingencies that are determined by
management to have a reasonably possible chance of occurring or that cannot be estimated are included
as a footnote to the financial statements. Contingent liabilities considered remote are generally not
disclosed unless they involve guarantees, in which case the nature of the guarantee is disclosed.
TRANSFERS TO THE TREASURY GENERAL FUND The Mint transfers amounts determined to
be in excess of the amounts required for Mint operations and programs to the Treasury General Fund
periodically throughout the fiscal year.
Seigniorage derived from the sale of circulating coins and the sale of numismatic products containing
circulating coins is an off-budget receipt to the Treasury General Fund. Off-budget means that these
funds cannot be used to reduce the annual budget deficit. Instead, they are used as a financing source
(i.e., they reduce the amount of cash that Treasury has to borrow to pay interest on the national debt).
Revenues generated from the sale of numismatic products are transferred to the Treasury General Fund
as an on-budget receipt. Unlike seigniorage, the numismatic transfer amount is available to the Federal
Government as current operating cash or it can be used to reduce the annual budget deficit.




                                            39
BUDGETARY RESOURCES The Mint does not receive an appropriation from the Congress. Instead,
the Mint receives all financing from the public and the FRB, and receives an apportionment of those
funds from OMB. This apportionment is considered a budgetary authority, which allows the Mint to
spend the funds. The Mint’s budgetary resources consist of unobligated balances, transfers, and
spending authority from offsetting collections, which is net of amounts that are permanently not
available. “Permanently not available” funds are on-budget transfers to the General Fund.
Hedging The Mint engages in a hedging program to avoid the effects of fluctuating silver costs as a
result of the changes in market prices. The Mint purchases silver in large quantities and sells an interest
in that silver to a trading partner, while maintaining physical custody and title to the silver. Sales of
silver to the trading partner are made at the same spot price that the Mint paid to obtain the silver on the
open market. The partner’s interest in Mint silver is reduced as finished silver bullion coins are sold to
authorized purchasers (APs). Repurchases of the trading partner’s interest in the silver occurs upon sale
of coins by the Mint. Repurchases are made on the same day as sales, in the same quantity sold, and
using the same spot price as was used for the sale to the AP. Each sale to and from the trading partner car-
ries a small transaction fee, the selling and buying fees net to a cost of one-half cent per ounce. The Mint
incurred $169 thousand in hedging fees in FY 2012, compared to $217 thousand incurred in FY 2011.
RECLASSIFICATION OF THE STATEMENTS OF BUDGETARY RESOURCES FORMAT
In FY 2012, changes to the presentation of the Statements of Budgetary Resources were made, in
accordance with guidance provided in OMB Circular A-136 and, as such, activity and balances reported
on the FY 2011 Statement of Budgetary Resources have been reclassified to conform to the presentation
in the current year. Certain other prior year amounts have also been reclassified to conform with the
current year presentation.
2. NON-ENTITY ASSETS
Components of Non-entity Assets at September 30 are as follows:
(dollars in thousands)				                    2012			        2011
Custodial Gold Reserves (Deep Storage)			   $ 10,355,539		 $ 10,355,539
Custodial Silver Reserves (Deep Storage)			        9,148		        9,148
Custodial Gold Reserves (Working Stock)			       117,514		      117,514
Custodial Silver Reserves (Working Stock)		       11,539		       11,539
Total Non-entity Assets				                   10,493,740		   10,493,740
Total Entity Assets					                       1,541,660		    1,478,032
Total Assets					$ 12,035,400		$ 11,971,772

Entity assets are assets that the reporting entity has authority to use in its operations. Mint management
has legal authority to use entity assets to meet entity obligations. Treasury-owned gold and silver
bullion reserves, for which the Mint is custodian, are non-entity assets.
3. FUND BALANCE WITH TREASURY
Fund Balance with Treasury at September 30 consists of:
(dollars in thousands)				                                2012			                     2011
Revolving Fund Types				                                $ 964,423			                $ 752,648
Other Fund Types					                                          94			                       94
Total of Fund Balance with Treasury			                  $ 964,517			                $ 752,742

Status of Fund Balance with Treasury
Unobligated Balance					                $ 693,852			 $ 413,094
Obligated Balance, Not Yet Disbursed			   270,571			   339,554
Non-Budgetary FBWT				                         94			        94
Total						$ 964,517			$ 752,742

                                             40
The Mint does not receive appropriated budget authority. The Fund Balance with Treasury is entirely
available for use to support United States Mint operations. At September 30, 2012 and 2011, the
revolving fund balance included $11.2 million and $11.7 million, respectively, in restricted amounts
for possible payment of surcharges to recipient organizations.
4. ACCOUNTS RECEIVABLE, NET
Components of accounts receivable are as follows:
(dollars in thousands)				                               September 30, 2012
				                        Gross Receivables		               Allowance	        Net Receivables
Intragovernmental			        $ 5,946			                        ($5,946)		               –
With the Public			            12,490			                          (397)		          12,093
Total Accounts Receivable		 $ 18,436			                       ($6,343)		        $ 12,093

(dollars in thousands)				                               September 30, 2011
				                        Gross Receivables		               Allowance	        Net Receivables
Intragovernmental			        $ 6,667			                        ($5,946)		        $    721
With the Public			            18,866			                          (612)		          18,254
Total Accounts Receivable		 $ 25,533			                       ($6,558)		        $ 18,975

The intragovernmental accounts receivable as of September 30, 2012 and 2011 was $5.9 million and
$6.6 million, respectively. This largely represents amounts due to the Mint for a joint numismatic
product with another federal entity. Management determined that the collection of $5.9 million related
to the program was in doubt and has included that amount in the allowance for doubtful accounts.
Receivables with the public at September 30, 2012 are $12.5 million, of which $8.3 million is owed by
fabricators for scrap and webbing, in addition to amounts owed by the public for numismatic products.
This compares to receivables with the public at September 30, 2011, of $18.9 million, of which $13.4
million was owed by fabricators for scrap and webbing, in addition to amounts owed by the public for
numismatic products. The allowance for doubtful accounts is the balance of the accounts receivable
with the public that is past due by 180 days or more. Collection action continues on these accounts,
but an allowance is recorded.
5. ADVANCES AND PREPAYMENTS
The components of advances and prepayments at September 30 are as follows:
(dollars in thousands)				                             2012			                    2011
Intragovernmental					                               $ 3,232			                 $ 2,046
With the Public					                                       1			                       1
Total Advances and Prepayments			                    $ 3,233			                 $ 2,047

Intragovernmental advances and prepayments as of September 30, 2012 and 2011 include $1.6 million
and $1.5 million, respectively, that the Mint paid the Treasury Working Capital Fund for a variety of
centralized services. The remaining balance of approximately $1.6 million represents payments made
to the United States Postal Service for product delivery services as of September 30, 2012, compared
to approximately $500 thousand paid at September 30, 2011. Advances with the public for both
FY 2012 and 2011 are outstanding travel advances to Mint employees who were traveling on
government business.




                                           41
6. CUSTODIAL GOLD AND SILVER reserves
As custodian, the Mint is responsible for safeguarding much of the Treasury-owned gold and silver
reserves, which include deep storage and working stock. The asset and the custodial liability to
Treasury are reported on the Balance Sheet at statutory rates. In accordance with 31 U.S.C. § 5117(b)
and 31 U.S.C. § 5116(b)(2), statutory rates of $42.2222 per fine troy ounce (FTO) of gold and no less
than $1.292929292 per FTO of silver are used to value the entire custodial assets held by the Mint.
The market values for gold and silver as of September 30 are determined by the London Gold Fixing
(PM) rate. Amounts and values of gold and silver in custody of the Mint as of September 30 are
as follows:
						 2012			 2011
Gold - Deep Storage:
  Inventories (FTO)					                            245,262,897		   245,262,897
  Market Value ($ per FTO)				                    $    1,776.00		 $    1,620.00
  Market Value ($ in thousands)			                $ 435,586,905		 $ 397,325,893
  Statutory Value ($ in thousands)			             $ 10,355,539		  $ 10,355,539
Gold - Working Stock:
  Inventories (FTO)					                              2,783,219		     2,783,219
  Market Value ($ per FTO)				                    $    1,776.00		 $    1,620.00
  Market Value ($ in thousands)			                $ 4,942,996		   $ 4,508,815
  Statutory Value ($ in thousands)			             $     117,514		 $     117,514
Silver - Deep Storage:
  Inventories (FTO)					                              7,075,171		     7,075,171
  Market Value ($ per FTO)				                    $       34.65		 $       30.45
  Market Value ($ in thousands)			                $     245,154		 $     215,439
  Statutory Value ($ in thousands)			             $       9,148		 $       9,148
Silver - Working Stock:
  Inventories (FTO)					                              8,924,829		     8,924,829
  Market Value ($ per FTO)				                    $       34.65		 $       30.45
Market Value ($ in thousands)				                 $     309,245		 $     271,761
Statutory Value ($ in thousands)			               $      11,539		 $      11,539
Total Market Value of Custodial Gold
	          and Silver Reserves ($ in thousands)		 $ 441,084,300		 $ 402,321,908
Total Statutory Value of Custodial Gold
	          and Silver Reserves ($ in thousands)		 $ 10,493,740		  $ 10,493,740




                                           42
7. INVENTORY and related property
The components of inventories at September 30 are summarized below:
(dollars in thousands)				                              2012			                     2011
Raw Materials					                                    $ 184,383			                $ 322,484
Work-In-Process					                                     98,348			                   87,754
Inventory held for current sale				                      78,881			                   91,049
Total Inventory and Related Property			               $ 361,612			                $ 501,287

Raw materials consist of unprocessed materials and by-products of the manufacturing process and the
metal value of unusable inventory, such as scrap or condemned coins, which will be recycled into a
usable raw material. In addition, as of September 30, 2012 and 2011, the inventory includes $241.5
million and $247.7 million, respectively, the market value of the silver hedged. Additional information
can be found in note 20. Work-in-process consists of semi-finished materials.
8. PROPERTY, PLANT AND EQUIPMENT, NET
Components of property, plant and equipment are as follows:
(dollars in thousands)				                               September 30, 2012			
				                       Asset Cost	                Accumulated Depreciation	 Total Property, Plant
						                                                and Amortization		        and Equipment, Net
Land				                   $ 2,529		                  $       -		               $     2,529
Structures, Facilities and
  Leasehold Improvements		   228,896		                  (150,760)		                   78,136
Computer Equipment		          31,232		                   (29,062)		                    2,170
Software				                  16,183		                   (15,508)		                      675
Construction-In-Progress		    16,450		                         -		                    16,450
Machinery and Equipment		    279,372		                  (196,805)		                   82,567
Total Property, Plant
  and Equipment, Net		     $ 574,662		                 ($392,135)		               $ 182,527

(dollars in thousands)				                               September 30, 2011			
				                       Asset Cost	                Accumulated Depreciation	 Total Property, Plant
						                                                and Amortization		        and Equipment, Net
Land				                   $ 2,529		                  $       -		               $     2,529
Structures, Facilities and
  Leasehold Improvements		   225,500		                  (148,387)		                   77,113
Computer Equipment		          31,235		                   (28,052)		                    3,183
Software				                  15,893		                   (15,051)		                      842
Construction-In-Progress		    12,875		                         -		                    12,875
Machinery and Equipment		    282,256		                  (193,097)		                   89,159
Total Property, Plant
  and Equipment, Net		     $ 570,288		                 ($384,587)		               $ 185,701


The land and buildings used to manufacture circulating coinage and numismatic products are owned
by the Mint and located in Philadelphia, Denver, San Francisco, and West Point. In addition, the Mint
owns the land and buildings at the United States Bullion Depository at Fort Knox. Construction-In-
Progress (CIP) represents assets that are underway, such as in the process of being readied for use, or
which are being tested for acceptability, but which are not yet being fully utilized by the Mint and,
therefore, not being depreciated.
Depreciation and amortization expenses charged to operations during the years ended September 30,
2012 and 2011, were $27.8 million and $29.5 million, respectively.



                                           43
9. HERITAGE ASSETS
The Mint maintains collections of heritage assets which are any property, plant, or equipment that
are retained by the Mint for its historic, natural, cultural, educational or artistic value, or significant
architectural characteristics. For example, the Mint’s historical artifacts contain, among other things,
examples of furniture and equipment used in the Mint facilities over the years, as well as examples of
the coin manufacturing process, such as plasters, galvanos, dies, punches, and actual finished coins.
The coin collections include examples of the various coins produced by the Mint over the years,
separated into collections of pattern pieces/prototypes, coin specimens, quality samples, and exotic
metal coin samples. The buildings housing the Mint at Denver, West Point, San Francisco, and Fort
Knox are all considered multi-use heritage assets. The Mint generally does not place a value on
heritage assets, even though some of the coins and artifacts are priceless. However, the assets are
accounted for and controlled for protection and conservation purposes. Heritage assets held by the
Mint are generally in acceptable physical condition. The following chart represents the Mint’s various
collections and historical artifacts.


Coin Collections					         Quantity of Collections Held September 30,
						 2012			 2011
Pattern Pieces/Prototypes				 1			                           1
Coin Specimens					           1			                           1
Quality Samples					          1			                           1
Exotic Metal Coin Samples				 1			                           1
Total						                   4			                           4

Historical Artifacts					 Quantity of Collections Held September 30,
						 2012			 2011
Antiques/Artifacts					        1			                      1
Plasters						                 1			                      1
Galvanos						                 1			                      1
Dies						                     1			                      1
Punches						                  1			                      1
Historical Documents				       1			                      1
Multi-use heritage assets				  4			                      4
Total						                   10			                     10

10. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES
Components of Liabilities Not Covered by Budgetary Resources at September 30 are as follows:
(dollars in thousands)				                              2012			        2011
Custodial Gold Reserves (Deep Storage)			             $ 10,355,539		 $ 10,355,539
Custodial Silver Reserves (Deep Storage)			                  9,148		        9,148
Working Stock Inventory - Gold Reserves			                 117,514		      117,514
Working Stock Inventory - Silver Reserves		                 11,539		       11,539
Other						                                                     94		           94
Total Liabilities Not Covered by Budgetary Resources	 $ 10,493,834		 $ 10,493,834
Total Liabilities Covered by Budgetary Resources		          95,913		      134,286
Total Liabilities					$ 10,589,747		$ 10,628,120

Liabilities not covered by budgetary resources represent the Mint’s custodial liabilities to the Treasury
that are entirely offset by Treasury-owned gold and silver reserves held by the Mint on behalf of the
federal government. The category “Other” represents a refundable security deposit related to a lease.




                                             44
11. RETIREMENT PLANS, OTHER POST-EMPLOYMENT COSTS AND OTHER
     IMPUTED COSTS
The Mint contributes seven percent of basic pay for employees participating in the Civil Service
Retirement System (CSRS). Most employees hired after December 31, 1983, are automatically covered
by the Federal Employees’ Retirement System (FERS) and Social Security. A primary feature of FERS
is that it offers a savings plan to which the Mint automatically contributes one percent of basic pay and
matches employee contributions up to an additional four percent of basic pay. Employees can contribute
a specific dollar amount or a percentage of their basic pay, as long as the annual dollar total does not
exceed the Internal Revenue Code limit of $17,000 for calendar year 2012 (a $5,500 catch-up
contribution can be given by participants age 50 and older). Employees participating in FERS are
covered by the Federal Insurance Contribution Act (FICA), for which the Mint contributes a matching
amount to the Social Security Administration.
Although the Mint contributes a portion for pension benefits and makes the necessary payroll deduc-
tions, it is not responsible for administering either CSRS or FERS. Administering and reporting on
pension benefit programs are the responsibility of the Office of Personnel Management (OPM). OPM
has provided the Mint with certain cost factors that estimate the cost of providing the pension benefit
to current employees. The cost factors of 29.8 percent of basic pay for CSRS-covered employees and
13.7 percent of basic pay for FERS-covered employees were in use for FY 2012. The CSRS and FERS
factors were 30.1 percent and 13.8 percent, respectively, in FY 2011.
The amounts that the Mint contributed to the retirement plans and social security for the year ended
September 30 are as follows:
(dollars in thousands)				                               2012			                   2011
Social Security System				                             $ 7,335			                 $ 7,230
Civil Service Retirement System			                        1,124			                  1,276
Federal Employees Retirement System
  (Retirement and Thrift Savings Plan)			                13,503			                  12,722
Total Retirement Plans and Other Post-employment Cost	 $ 21,962			                $ 21,228

The Mint also recognizes its share of the future cost of pension payments and post-retirement health and
life insurance benefits for employees while they are still working with an offset classified as imputed
financing. OPM continues to report the overall liability of the Federal Government and make direct
recipient payments. OPM has provided certain cost factors that estimate the true cost of providing the
post-retirement benefit to current employees. The cost factors relating to health benefits are $5,817 and
$6,027 per employee enrolled in the Federal Employees Health Benefits Program in FY 2012 and FY
2011, respectively. The cost factor relating to life insurance is two-one hundredths percent (.02 percent)
of basic pay for employees enrolled in the Federal Employees Group Life Insurance Program for both
FY 2012 and FY 2011.
The amount of imputed cost related to retirement plans and other post-employment costs incurred by
the Mint for the year ended September 30 is as follows (before the offset for imputing financing):
(dollars in thousands)				                               2012			                    2011
Health Benefits					                                   $ 8,375			                 $ 8,673
Life Insurance					                                          32			                      26
Pension Expense					                                      3,938			                   4,372
Total Imputed Retirement and Postemployment Costs	     $ 12,345			                $ 13,071




                                            45
In addition to the pension and retirement benefits described above, the Mint records imputed costs and
financing for Treasury Judgment Fund payments made on behalf of the bureau. Entries are made in
accordance with FASAB Interpretation No. 2. During FY 2012, the Judgment Fund paid $26 thousand
on behalf of the Mint for the clean-up of an EPA Superfund site. This was a one-time payment. Also
during FY 2012, the Mint received unreimbursed services (imputed financing) from another federal
agency. The amount was $672 thousand. For FY 2011, entries for Judgment Fund payments totaled
$270 thousand (Other Funds).
12. LEASE COMMITMENTS
THE MINT AS LESSEE: The Mint leases office and warehouse space from commercial vendors, the
General Services Administration (GSA), and the Bureau of Engraving and Printing. In addition, the
bureau leases copiers and other office equipment from commercial vendors and vehicles from GSA.
With the exception of the commercial leases on two office buildings in Washington, D.C., all leases are
one-year, or one-year with renewable option years. The two building leases in Washington, D.C. have
terms of 20 and 10 years. One of the building leases expired October 31, 2011 and was not renewed.
Because all of the Mint’s leases can be canceled, there are no minimum lease payments due.
THE MINT AS LESSOR: The Mint sublets office space at cost to several other federal entities in the
leased headquarters building in Washington, D.C. As of September 30, 2012, the Mint sublet in excess
of 56,000 square feet in the leased building. Tenants include the Internal Revenue Service, Treasury
Executive Institute, and U.S. Marshals Service. Starting October 31, 2011, the lease of space in the
building at 799 9th Street, NW, containing 149,647 square feet, was canceled. All of the subleases
are operating leases and subject to annual availability of funding. The Mint has also entered into an
agreement to sublet space in the Headquarters building to a commercial tenant. The Mint received a
security deposit from the tenant of $94,500.
Future Projected Receipts:			                      Building Sub-lease

Year 3 (FY 2013)				                                   $378,000

Year 4 (FY 2014)				                                    378,000

Year 5 (FY 2015)				                                    378,000

Year 6 (FY 2016)				                                    404,460

Year 7 (FY 2017)				                                    404,460

Year 8-9 (FY 2018-FY 2019)			                           808,920

Total Future Operating Lease Receipts		              $2,751,840

13. CONTINGENCIES
The Mint is subject to legal proceedings and claims which arise in the ordinary course of its business.
Judgments, if any, resulting from pending litigation against the Mint generally would be satisfied from
the PEF. Likewise, under the Notification and Federal Employee Antidiscrimination and Retaliation
Act of 2002 (No FEAR Act, P. L. 107-174), settlements and judgments related to acts of discrimina-
tion and retaliation for whistle blowing will be paid from the PEF. In the opinion of management, the
ultimate resolution of these actions will not materially affect the Mint’s financial position or the results
of its operations.
The Chief Counsel of the Mint provided a Legal Representation Letter reflecting no expected material
loss resulting from pending legal cases.




                                             46
14. earmarked FUNDS
Pursuant to 31 U.S.C. § 5136, “all receipts from Mint operations and programs, including the produc-
tion and sale of numismatic items, the production and sale of circulating coinage at face value to the
FRB, the protection of government assets, and gifts and bequests of property, real or personal shall be
deposited into the PEF and shall be available to fund its operations without fiscal year limitations.”
The PEF meets the requirements of an earmarked fund as defined in Statement of Federal Financial
Accounting Standards 27, Identifying and Reporting Earmarked Funds. As non-entity and non-PEF
assets, the Treasury-owned gold and silver reserves are not included in the earmarked funds.
15. INTRAGOVERNMENTAL COSTS AND EARNED REVENUE
Intragovernmental costs and earned revenue reflect transactions in which both the buyer and seller are
federal entities. Revenue with the public reflects transactions for goods or services with a non-federal
entity. The purpose for this classification is to enable the federal government to prepare consolidated
financial statements. The following table provides earned revenues, gross cost, and net program revenue:
(dollars in thousands)	        			                        2012			                     2011
Numismatic Production and Sales
Cost:
  Intragovernmental:
    Selling, General and Administrative			            $    19,410		               $      23,863
    Imputed Costs					                                      5,884		                       6,152
  Total Intragovernmental Costs			                         25,294		                      30,015
  Public:
    Cost of Goods Sold				                                2,742,045		                 3,912,375
    Selling, General and Administrative			                   65,649		                    66,971
  Total Public Cost					                                  2,807,694		                 3,979,346
Gross Cost					                                           2,832,988		                 4,009,361
Revenue:
  Intragovernmental:
    Rent Revenues					                                       3,408		                   10,232
    Other Intragovernmental Revenues			                         14		                       65
  Total Intragovernmental Revenues			                        3,422		                   10,297
  Public						                                          2,909,010		                 4,168,297
  Total Earned Revenue				                              2,912,432		                 4,178,594
Net Program Cost (Revenue)				                        $    (79,444)		             $ (169,233)

						
Numismatic Production and Sales of Circulating Coins
Cost:
 Intragovernmental:
   Selling, General and Administrative			            $        226		               $           166
 Total Intragovernmental Costs			                    $        226		                           166
 Public:
   Cost of Goods Sold				                                   5,775		                          4,054
   Selling, General and Administrative			                     764		                            465
 Total Public Cost					                                     6,539		                          4,519
Gross Cost					                                             6,765		                          4,685
Revenue:
 Public						                                               6,765		                          4,685
 Total Earned Revenue				                                   6,765		                          4,685
Net Program Cost					                                $          –		               $              –




                                           47
						 2012			 2011
Circulating Production and Sales
Cost:
 Intragovernmental:
   Selling, General and Administrative			              $  13,062		 $   9,546
   Imputed Costs					                                      7,160		     7,189
 Total Intragovernmental Costs			                         20,222		    16,735
 Public:
   Cost of Goods Sold				                                307,227		   334,222
   Selling, General and Administrative			                 48,551		    53,893
   Other Costs and Expenses (Mutilated and Uncurrent)	    11,434		    23,280
 Total Public Cost					                                  367,212		   411,395
 Gross Cost					                                         387,434		   428,130
Revenue:
 Public						                                            387,434		   428,130
 Total Earned Revenue				                                387,434		   428,130
Net Program Cost					                                  $       –		 $       –

Net Cost (Revenue) Before Protection of Assets		     $    (79,444)		            $   (169,233)

Protection of Assets
 Public:
   Protection Cost					                              $    42,195		 $                 41,570
 Total Earned Revenue				                            $         –		 $                      –
 Net Cost of Protection of Assets			                 $    42,195		 $                 41,570

 Net Cost (Revenue) from Operations			               $    (37,249)		            $   (127,663)

16. EARNED REVENUE AND OTHER FINANCING SOURCE (SEIGNIORAGE)
The Statement of Net Cost reflects the earned revenue and corresponding gross costs for Circulating
Production and Sales and for Numismatic Production and Sales of Circulating Coins. Circulating
Production and Sales represents coin sales to the FRB, and Numismatic Production and Sales of
Circulating Coins represents sales of circulating coins to the public (i.e., numismatic customers).
SFFAS Number 7, Accounting for Revenue and Other Financing Sources and Concepts for Reconcil-
ing Budgetary and Financial Accounting, limits the amount of net program revenue from production of
circulating coins to the cost of metal, manufacturing and transportation. OMB Circular A-136 defines
the treatment of other financing sources on the Statement of Changes in Net Position, particularly as
it relates to seigniorage. Therefore, on the Statement of Net Cost, earned revenue is recognized only
to the extent of the gross cost of production. The difference between those costs and the face value of
the coin is an “Other Financing Source” referred to as seigniorage. Any revenue over face value for
circulating coins sold as numismatic items is considered earned revenue and included in the category
Numismatic Production and Sales on the Statement of Net Cost.
The following chart reflects the two components of the receipts from the sale of circulating coin – the
earned revenue from the Statement of Net Costs and Seigniorage from the Statement of Changes in Net
position for the year ended September 30:
(dollars in thousands)				                            2012			                    2011
Revenue-FRB					                                     $  387,434		               $  428,130
Seigniorage-FRB					                                    105,850		                  348,780
Total Circulating Coins				                          $ 493,284		                $ 776,910

Revenue-with the public				                          $     6,765		              $     4,685
Seigniorage-with the public				                           22,859		                    9,797
Total Numismatic Sales of Circulating Coins		        $    29,624		              $    14,482
Total Seigniorage					                               $   128,709		              $   358,577

                                             48
17. APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED
The Mint receives apportionments of its resources from OMB. An apportionment is a plan approved
by OMB to spend funds as directed by law. All Mint obligations are classified as reimbursable, as they
are financed by offsetting collections received in return for goods and services provided. OMB usually
uses one of two categories to distribute budgetary resources. Category A apportionments distribute
budgetary resources by fiscal quarters. Category B apportionments typically distribute budgetary
resources by activities, projects, objects or a combination of these categories. The Mint has only
category B apportionments.
18. EXPLANATION OF DIFFERENCES BETWEEN THE STATEMENT OF BUDGETARY
     RESOURCES AND THE BUDGET OF THE UNITED STATES GOVERNMENT
SFFAS No. 7, Accounting for Revenue and Other Financing Sources and Concepts for Reconciling
Budgetary and Financial Accounting, requires an explanation of material differences between the
Statement of Budgetary Resources (SBR) and the related actual balances published in the Budget of
the United States Government (President’s Budget). The President’s Budget for fiscal year FY 2012 is
expected to be published in February 2013 and made available through OMB. Therefore, the analysis
presented here is for the prior year (FY 2011) “actual” figures published in the President’s budget in
February 2012. The following chart displays the comparison of the FY 2011 SBR and the actual FY
2011 balances included in the FY 2013 President’s Budget.
(rounded to millions)					                                       September 30, 2011
						                                                 Statement of Budgetary	    President’s
						                                                 Resources		                Budget
United States Mint Public Enterprise Fund
Total Budgetary Resources				                          5,088			                   5,088
Status of Budgetary Resources:
  Obligations Incurred				                             4,675			                   4,675
  Unobligated Balances-available			                      413			                     413
Total Status of Budgetary Resources			                 5,088			                   5,088
Net Outlays					                                         472			                     472

19. LEGAL ARRANGEMENTS AFFECTING USE OF UNOBLIGATED BALANCES
The PEF statute establishes that all receipts from Mint operations and programs, including the
production and sale of numismatic items, the production and sale of circulating coinage, the protection
of government assets, and gifts and bequests of property, real or personal, shall be deposited into the
PEF and shall be available without fiscal year limitations. Any amount that is in excess of the amount
required by the PEF shall be transferred to the Treasury for deposit as miscellaneous receipts.
At September 30, 2012 and 2011, the Mint transferred excess receipts to the Treasury General Fund
of $77 million and $51 million, respectively.
20. HEDGING PROGRAM
At September 30, 2012 and 2011, the market value of the silver sold to the trading partner and not
yet sold by the Mint and, therefore, not repurchased from the trading partner was $241.5 million and
$247.7 million respectively. In addition, the Mint owed the trading partner $1.2 million in unpaid
realized losses at September 30, 2012 and the trading partner owed the Mint $4.3 million in unpaid
realized gains at September 30, 2011. In FY 2012, the Mint recorded an unrealized loss of $1.9 million
compared to an unrealized loss of $0.7 million in FY 2011.




                                           49
21. RECONCILIATION OF NET COST OF OPERATIONS (PROPRIETARY) TO BUDGET
(dollars in thousands)				                              For The Years Ended September 30,
						 2012			 2011
Resources Used to Finance Activities:
  Budgetary Resources Obligated
    Obligations Incurred				                          $ 3,106,304		                $ 4,674,890
    Less: Spending Authority from
      Offsetting Collections and Recoveries		           3,464,062		                  5,027,991
  Net Obligations					                                   (357,758)		                  (353,101)
  Other Resources
    Transfers to the Treasury General Fund On-Budget	      (77,000)		                   (51,000)
    Imputed Financing from Costs Absorbed by Others	        13,043		                     13,341
    Other Financing Sources (Seigniorage)		               128,709		                    358,577
  Net Other Resources Used to Finance Activities		          64,752		                   320,918
Total Resources Used to Finance Activities		             (293,006)		                    (32,183)

Resources Used to Finance Items Not Part
of the Net Cost of Operations:
  Change in Budgetary Resources Obligated for Goods,
    Services and Benefits Ordered but Not Yet Provided	           (30,491)		             88,670
  Resources that fund Expenses Recognized in Prior Periods	          (272)		                  –
  Resources that Finance the Acquisition
    of Assets or Liquidation of Liabilities			                    426,508		            463,062
  Other						                                                      (77,000)		           (51,547)
  Total Resources Used to Finance Items
    Not Part of the Net Cost of Operations			                      318,745		            500,185
Total Resources Used to Finance the Net Cost of Operations	       (611,751)		          (532,368)

Components Requiring or Generating
Resources in Future Periods
 Increase in Exchange Revenue Receivable from the Public	           (165)		                   –

Total Components of Net Cost of Operations that will
Require or Generate Resources in Future Periods		                   (165)		                   –

Components not Requiring or Generating Resources
 in the Current Period
 Depreciation and Amortization			                                  27,767		             29,491
 Revaluation of Assets				                                          3,204		                870
 Other						                                                      543,696		            374,344

Total Components of Net Revenue from Operations
 that will not require or Generate Resources		                    574,667		            404,705

Total Components of Net Revenue from Operations
 that will not require or Generate Resources
 in the Current Period				                                        574,502		            404,705

Net Cost (Revenue) from Operations			                         $   (37,249)		        $ (127,663)

22. Undelivered Orders at the End of the Period
Budgetary resources obligated for undelivered orders as of September 30, 2012 and 2011 were
$196,478 and $242,636 respectively.




                                                50
Required Supplementary Information (Unaudited)
For the Years Ended September 30, 2012 and 2011


Introduction
This section provides the Required Supplemental Information as prescribed by the Office of Management and Budget
(OMB) Circular A-136, “Financial Reporting Requirements” and Statement of Federal Financial Accounting
Standards (SFFAS) #29 Heritage Assets and Stewardship Land.
HERITAGE ASSETS
The Mint is steward of a large, unique and diversified body of heritage assets that demonstrate the social, educational
and cultural heritage of the Mint. These items include a variety of rare and semi-precious coin collections and
historical artifacts, and are held at various Mint locations. Some of these items are placed in locked vaults within
the Mint, where access is limited to only special authorized personnel. Other items are on full display to the public,
requiring little if any authorization to view.
Included in the heritage assets are the buildings housing the Mint at Denver, West Point, San Francisco, and Fort
Knox. The Mint generally does not place a value on heritage assets, even though some of the coins and artifacts are
priceless. However, the assets are accounted for and controlled for protection and conservation purposes. Heritage
assets held by the Mint are generally in acceptable physical condition, and there is no deferred maintenance on the
Denver, West Point, San Francisco, and Fort Knox buildings.




                                                          51
other accompanying information
Department of the Treasury United States Mint
Schedule of Spending



                                                     For The Years Ended September 30,
                                                      2012                        2011
                                                           (dollars in thousands)
        What Money is Available to Spend?
        Total Resources					                       $3,800,156 		              $5,087,984
        Less Amount Not Agreed to be Spent 			       (669,760)		                (413,094)
        Less Amount Not Available to be Spent			      (24,092)		                       –
        Total Amounts Agreed to be Spent			        $3,106,304		               $4,674,890

        How was the Money Spent?
        Personnel Compensation				                      142,798		    141,733
        Personnel Benefits					                          44,420		     42,313
        Benefits for Former Personnel				                   306		        215
        Travel and transportation of persons			           2,128		      2,127
        Transportion of things				                       22,982		     29,078
        Rent, Communications, and utilities			           23,761		     31,649
        Printing and reproduction				                     1,624		      1,480
        Other contractual services				                   95,838		     98,742
        Supplies and materials				                    2,763,066		  4,138,465
        Equipment					                                   16,394		     16,407
        Land and structures					                         11,694		     10,957
        Grants, subsidies and contributions			                0		          0
        Insurance claims and indemnities			                  13		         13
        Interest and dividends				                            2		         44
        		
        Total Spending					$3,125,026		$4,513,223
        		
        Unpaid obligations, end of year (gross)			      276,501		    346,248
        Minus - Unpaid obligations, brought forward,
          October 1 (gross)					                       (346,248)		  (228,454)
        Recoveries of prior year unpaid obligations		    51,025		     43,873
        Amounts Remaining to be Spent			               ($18,722)		 $161,667

        Total Amounts Agreed to be Spent			        $3,106,304		               $4,674,890

        Who did the Money go to? VENDOR		
        Federal						                                  68,280		                   63,740
        Non-Federal					                            3,038,024		                4,611,150
        Total Amounts Agreed to be Spent			        $3,106,304	                $4,674,890
        		
        How was the Money Given?
        Employees and Former Employees 			           197,143		                   197,312
        Contracts 						                           2,909,159		                 4,477,529
        Insurance 						                                   –		                         5
        Interest						                                     2		                        44

        Total Amounts Agreed to be Spent			        $3,106,304		               $4,674,890



                                              52
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General
United States Department of the Treasury

Acting Director
United States Mint:

We have audited the balance sheets of the United States Mint as of September 30, 2012 and 2011 and the
related statements of net cost, and changes in net position, and combined statements of budgetary resources
(hereinafter referred to as “financial statements”) for the years then ended, and have issued our report
thereon dated December 3, 2012.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the United States Mint is responsible for establishing and maintaining effective
internal control over financial reporting. In planning and performing our fiscal year 2012 audit, we
considered the United States Mint’s internal control over financial reporting by obtaining an understanding
of the design effectiveness of the United States Mint’s internal control, determining whether internal
controls had been placed in operation, assessing control risk, and performing tests of controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the financial statements,
but not for the purpose of expressing an opinion on the effectiveness of the United States Mint’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of the
United States Mint’s internal control over financial reporting. We did not test all internal controls relevant
to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2012 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.

                                                                 53
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Exhibit I presents the status of the prior year significant deficiency.

This report is intended solely for the information and use of the United States Mint’s management, the
Department of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability
Office, and the U.S. Congress and is not intended to be and should not be used by anyone other than these
specified parties.




December 3, 2012




                                                       54
                                                                                                  Exhibit I

                                        UNITED STATES MINT
                                Status of Prior Year Significant Deficiency
                                            September 30, 2012

As required by Government Auditing Standards issued by the Comptroller General of the United States,
and by OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, we have reviewed
the status of the prior year finding and recommendation. The following table provides our assessment of
the progress the United States Mint has made in correcting the significant deficiency identified during that
audit as of the date of this audit report, December 3, 2012:

                                                                                              Status as of
  Prior Year                                    Prior Year                                    September
  Condition                                  Recommendation
                                                                                               30, 2012

 Improvements Needed Over Inventory

 Headquarters     Recommendation: We recommend United States Mint management                     Closed
 Inventory        follow the Counting Inventory SOP, and require at least an annual
                  physical inventory held at Headquarters.




                                                    55
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General
United States Department of the Treasury

Acting Director
United States Mint:

We have audited the balance sheets of the United States Mint as of September 30, 2012 and 2011, and the
related statements of net cost, and changes in net position, and combined statements of budgetary resources
(hereinafter referred to as “financial statements”) for the years then ended, and have issued our report
thereon dated December 3, 2012.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the United States Mint is responsible for complying with laws, regulations, and
contracts applicable to the United States Mint. As part of obtaining reasonable assurance about whether the
United States Mint’s financial statements are free of material misstatement, we performed tests of the
United States Mint’s compliance with certain provisions of laws, regulations, and contracts,
noncompliance with which could have a direct and material effect on the determination of the financial
statement amounts, and certain provisions of other laws and regulations specified in OMB Bulletin No. 07-
04, including the provisions referred to in Section 803(a) of the Federal Financial Management
Improvement Act of 1996 (FFMIA). We limited our tests of compliance to the provisions described in the
preceding sentence, and we did not test compliance with all laws, regulations, and contracts applicable to
the United States Mint. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report, exclusive of
those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to
be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which the United States Mint’s financial
management systems did not substantially comply with the (1) Federal financial management systems
requirements, (2) applicable Federal accounting standards, and (3) the United States Government Standard
General Ledger at the transaction level.

This report is intended solely for the information and use of the United States Mint’s management, the
Department of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability
                                                                56
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Office, and the U.S. Congress and is not intended to be and should not be used by anyone other than these
specified parties.




December 3, 2012




                                                   57
Appendix I: FY 2012 Coin and Medal Products

2012 Star-Spangled Banner Commemorative Coins
Coin Released: March 3, 2012
Mintage Limit: 100,000 gold $5; 500,000 silver $1
Description: Description: These coins commemorate the writing of the
“Star-Spangled Banner” by Francis Scott Key during the defense of Fort
McHenry in Baltimore during the War of 1812. Key arrived in Baltimore
on a diplomatic mission to secure the release of an American prisoner right
before a naval attack, and rather than let him go, the British held him until
after the battle was over. Key witnessed the defense of Fort McHenry from
onboard a British ship and wrote the poem the next morning, when the
smoke cleared and he saw proof – the American flag flying above the fort –
that the Americans won the battle. Now the national anthem of our country,
the “Star-Spangled Banner” has been popular since it was written. There are
four different coin designs: a gold proof coin, a gold uncirculated coin,
a silver proof coin, and a silver uncirculated coin. Surcharges from sales
of the coins are authorized to be paid to the Maryland War of 1812
Bicentennial Commission.

2012 Infantry Soldier Silver Dollar
Coins Released: February 16, 2012
Mintage Limits: 350,000
Description: Description: This coin commemorates the creation of the U.S.
Army Infantry, which was authorized by Congress in 1775. The design on
the obverse (heads side) of the coin shows an Infantry soldier charging
forward and beckoning troops to follow, symbolizing the “follow me”
motto of the Infantry. This coin is offered in both proof and uncirculated
silver dollar. Surcharges from sales of the coins are authorized to be paid
to the National Infantry Foundation.

The New Frontier Bronze Medal
Medal Awarded: November 16, 2011
Description: Description: This bronze medal is a duplicate of the New
Frontier Congressional Gold Medal awarded to astronauts John Herschel
Glen Jr., Neil A. Armstrong, Edwin E. “Buzz” Aldrin Jr. and Michael Collins.

The Nisei Soldiers of World War II Bronze Medal
Medal Awarded: November 2, 2011
Description: Description: This bronze medal is a duplicate of the
Congressional Gold Medal awarded to the 100th Infantry Battalion,
442nd Regimental Combat Team and Military Intelligence Service of the
U.S. Army. Neisi (second generation Americans of Japanese ancestry)
served in World War II and the 442nd was the most decorated unit.




                                                         58
Chickasaw National Recreation Area Quarter –
Oklahoma
Coin Released: November 7, 2011
Description: Description: The Chickasaw National Recreation Area was
established in 1902 through the support of the Chickasaw Nation, and
provides protection to the area’s unique resources, springs, streams, lakes,
and natural features. The coin features the Lincoln Bridge, dedicated
in 1909 to commemorate Abraham Lincoln’s birth.

El Yunque National Forest Quarter – Puerto Rico
Coin Released: January 24, 2012
Description: Description: The only tropical rainforest in the U.S. National
Forest System, El Yunque National Forest was established as a national
site Jan. 17, 1903. The reverse design shows a Coqui tree frog and a Puerto
Rican parrot behind an epiphyte plant.

Chaco Culture National Historical Park Quarter –
New Mexico
Coin Released: March 15, 2012
Description: The Chaco Canyon was a major center of Puebloan culture
between A.D. 850 and 1250, and home to Pueblo, Hopi and Navajo Indians.
It was established as a national site March 11, 1907. The reverse design
shows two elevated kivas in the Chetro Ketl Complex.

Acadia National Park Quarter – Maine
Coin Released: June 12, 2012
Description: Home to the tallest mountain on the U.S. Atlantic Coast,
Acadia National Park was established as a national site July 8, 1916.
The reverse image shows a view of the Bass Harbor Head Lighthouse
and the coastline.

Hawai’i Volcanoes National Park Quarter – Hawaii
Coin Released: August 27, 2012
Description: Established as a national park Aug. 1, 1916, Hawai’i
Volcanoes National Park shows the effects of 70 million years of volcanism,
migration, and evolution. The reverse design shows an eruption on the east
rift of Kilauea Volcano, which is one of the most active and dangerous
volcanoes on Earth.




                                                          59
James Garfield Presidential $1 Coin –
20th President, 1881
Coin Released: November 17, 2011
Description: James Garfield was elected to the Ohio state senate in 1859
and to Congress in 1862. He served 18 years before winning the nomination
for President of the United States. In the summer of 1881, just four months
into his term, he was shot and two months later died of his injuries.

Chester Arthur Presidential $1 Coin –
21st President, 1881-1885
Coin Released: April 9, 2012
Description: An attorney by trade, Chester Arthur was also quartermaster
general of New York state before becoming President after the death of
James Garfield. He was a champion of civil service reform, and while he
was President, Congress passed the Pendleton Act, establishing a bipartisan
Civil Service Commission.

Grover Cleveland Presidential $1 Coin –
22nd President, 1885-1889
Coin Released: June 19, 2012
Description: Grover Cleveland is the only President to leave the White
House and return for a second term four years later. During his first term,
he vetoed private pension bills to Civil War veterans whose claims were
fraudulent. He also ordered an investigation of western lands railroad
companies held by government grant and forced the railroads to return
81 million acres to the government. Cleveland also signed the Interstate
Commerce Act, which regulated railroads.

Benjamin Harrison Presidential $1 Coin –
23rd President, 1889-1893
Coin Released: September 18, 2012
Description: Grandson of former President William Henry Harrison,
Benjamin Harrison served as a colonel of the 70th Volunteer Infantry in the
Civil War. An attorney, he served in the U.S. Senate, where he championed
American Indians, homesteaders and Civil War veterans. As President, he
signed appropriation bills for internal improvements, naval expansion and
subsidies for steamship lines, and the Sherman Anti-Trust Act, the first
federal attempt to regulate trusts.




                                                          60
Lucretia Garfield First Spouse Gold Coin
and Bronze Medal – First Lady, 1881
Coin and Medal Released: December 1, 2011
Description: Born in 1832, Lucretia Rudolph married James Garfield in
1858. A few months after arriving at the White House, she contracted malaria
and went to a New Jersey coastal resort to recover. She was there when
President Garfield was shot. After his death, she moved back to Ohio. The
reverse of this coin depicts Garfield’s interest in art and shows her painting.

2012 NATIVE AMERICAN $1 COIN
Coin Released: April 26, 2012
Description: This design illustrates “Trade Routes in the 17th Century,”
and shows a Native American and horse in profile. Of all the goods traded
in the 17th century, the horse became the most sought-after commodity
in inter-tribal trade, which was well-established before European settlers
arrived. American Indians maintained widespread trans-continental trade.
These trade routes were later followed by explorers and settlers. This
cross-continental trade infrastructure culminated in the construction
of the modern-day interstate highway system.

2012 American Eagle Platinum Proof Coin
Coin Released: August 9, 2012
Description: In 2009, the Mint introduced a new six-year platinum
proof coin program highlighting the Preamble to the U.S. Constitution.
In 2012, “To Provide for the Common Defence” was released. The reverse
design features a minuteman from the Revolutionary War. In addition to
a rifle, he carries a book, representing the importance of knowledge in
defending the country. The reverse designs in the Preamble Series are
inspired by narratives prepared by the Chief Justice of the United States
at the request of the Mint.




                                                           61
Montford Point Marines Congressional Gold Medal
Medal awarded: June 27, 2011
Description: The Montford Point Marines were recognized for their per-
sonal sacrifice and service to their country during World War II. The first
black Americans to enlist in the U.S. Marine Corps after President Franklin
Roosevelt issued the Executive Order establishing the Fair Employment
Practices Commission in June 1941, these men landed at Iwo Jima, took
part in the seizure of Okinawa, and landed at Peleliu and Saipan.

Constantino Brumidi Congressional Gold Medal
Medal awarded: July 11, 2012
Description: Brumidi (1805-1880) designed the murals in the U.S. Capitol.
Born in Rome, he came to the United States in 1852 and became a citizen
in 1857.

Arnold Palmer Congressional Gold Medal
Medal awarded: September 12, 2012
Description: Golfer Arnold Palmer received the Congressional Gold Medal
in recognition for promoting excellence and good sportsmanship in golf.
He has won 92 championships in national or international professional
competitions. He also served in the U.S. Coast Guard for three years and for
20 years as the honorary national chairperson of the March of Dimes Birth
Defects Foundation.

Daw Aung San Suu Kyi Congressional Gold Medal
Medal awarded: September 19, 2012
Description: Committed to peaceful dialogue in bringing democracy,
human rights, and national reconciliation to Burma, Daw Aung San Suu Kyi
was awarded the Congressional Gold Medal. Remaining under house arrest
for nearly 15 years, Suu Kyi was released this year and continues her fight
against human rights violations by promoting freedom and democracy.
She has also been awarded the Sakharov Prize for Freedom of Thought
in 1990, the Nobel Peace Prize in 1991 (the prize money of which she
donated to a health and education fund in Burma), and the Presidential
Medal of Freedom in 2000.




                                                        62
Connecting America through Coins




           www.usmint.gov
